U.S. Department of Justice
Office of the Inspector General




 A Review of Allegations of a
 Double Standard of Discipline
 at the FBI


 C-4 Crack Cocaine




                    DRAFT



                                  Office of the Inspector General
                                              November 15, 2002
                                   TABLE OF CONTENTS

CHAPTER ONE: INTRODUCTION........................................................................1
   I. Background ...............................................................................................1
   II. OIG Investigation and Report...................................................................1
   III. Summary of OIG Conclusions..................................................................2

CHAPTER TWO: FBI DISCIPLINARY STRUCTURE..........................................4
   I. FBI’s Prior Disciplinary Process ..............................................................4
   II. New Disciplinary Process.........................................................................5

CHAPTER THREE: THE LEEU REPORT..............................................................9
   I. LEEU’s Statistical Analysis......................................................................9
   II. OIG’s Analysis........................................................................................11
   III. Unprofessional Behavior of a Special Agent in Charge.........................12
   IV. Discipline of SES Employees for Loss of FBI Property ........................15

CHAPTER FOUR: THE POTTS RETIREMENT PARTY....................................17
   I. Background .............................................................................................17
   II. The Evidence ..........................................................................................18
        A. Training Division Personnel ...........................................................18
        B. SAC Herbert Collins .......................................................................19
        C. SAC Van Harp ................................................................................20
        D. SAC Victor Gonzalez .....................................................................20
        E. SAC Jack Daulton...........................................................................21
        F. Precedent .........................................................................................22
   III. The Disciplinary Decisions.....................................................................25
        A. The SES Board................................................................................25
        B. The Deputy Director’s Decision .....................................................29
        C. Oversight By DOJ OPR ..................................................................29
   IV. OIG Analysis ..........................................................................................29

CHAPTER FIVE: RUBY RIDGE ...........................................................................32
   I. Background .............................................................................................35
   II. Initial Internal Inquiries ..........................................................................36
   III. Department’s “Berman” Inquiry and FBI’s “Walsh” Inquiry................37
   IV. The FBI’s “Mathews” Review................................................................39
   V. FBI Disciplinary Decisions.....................................................................40
   VI. Investigation of Alleged Cover Up.........................................................41


                                                        i
           A.DOJ OPR Draft Report and FBI OPR Comments..........................43
           B.Memorandum to DOJ OPR from FBI OPR Investigators ..............45
           C.DOJ OPR Final Report ...................................................................46
           D.DOJ OPR Report Forwarded to the Justice Management Division
              .........................................................................................................48
    VII. The Justice Management Division Review ............................................49
         A. Jarcho’s Analysis ............................................................................49
         B. Consideration of Matter by Deputy Assistant Attorney Generals
             Sposato and Vail .............................................................................52
         C. DOJ OPR Disagrees with Vail and Sposato’s Recommendations .56
         D. FBI OPR’s Response to DOJ OPR .................................................58
         E. Colgate’s Decision ..........................................................................59
    VIII.    OIG Analysis...................................................................................62
    IX. Bonuses and Promotions.........................................................................65

CHAPTER SIX: OIG RECOMMENDATIONS AND CONCLUSIONS ..............70




                                                         ii
                               CHAPTER ONE
                              INTRODUCTION
CHAPTER ONE: INTRODUCTION
I. Background
      This report examines complaints from Federal Bureau of Investigation (FBI)
employees alleging that the FBI’s system of discipline was unfair because FBI
senior managers were treated more leniently than rank and file employees. In
particular, members of the Senior Executive Service (SES) were alleged to receive
light or no discipline while lower-level employees were treated more harshly for
similar offenses. Among the concerns was that the FBI used a separate
disciplinary system for SES members in which other SES members sat in judgment
of their SES colleagues.
      In 1999 the FBI’s Law Enforcement Ethics Unit (LEEU), a division of the
FBI’s Office of Professional Responsibility (OPR), conducted an analysis to
determine whether the FBI had such a “double standard” of discipline. The LEEU
examined statistics on misconduct investigations and the discipline imposed for
SES and non-SES employees. The LEEU also examined the outcome of several
cases involving investigations of senior managers for various alleged acts of
misconduct. In September 1999, the LEEU issued an internal report stating that it
had concluded that senior FBI managers received different and more favorable
treatment than other employees.
      In August 2000 FBI Director Louis Freeh made several changes to the
disciplinary system, including disbanding the separate SES disciplinary process.
Currently, the discipline process for managers, line agents, and support personnel
is similar, although there are still a few differences.

II. OIG Investigation and Report
      In order to review the allegations of a double standard of discipline in the
FBI, the Office of the Inspector General (OIG) first reviewed the LEEU double
standard report and carefully examined the cases it put forward as examples of a
double standard. We also reviewed more recent cases in which SES-level
employees were disciplined. In addition, we thoroughly reviewed the investigation
and discipline in the “Ruby Ridge” and “Potts retirement party” cases, two well-
known cases that generated significant controversy inside and outside the FBI
about the discipline imposed on FBI employees. During our review, we
interviewed many FBI officials involved with the disciplinary process, including


                                         1
the authors of the LEEU double standard report, and many FBI and Department of
Justice (DOJ) managers.
       This report describes the results of our examination. In Chapter Two of the
report, we briefly describe the FBI disciplinary system, including recent changes to
it. In Chapter Three, we discuss the LEEU report, including two of the examples
of SES discipline cases that suggested a double standard of discipline. We also
discuss our review of recent disciplinary actions involving SES employees since
changes in the disciplinary process were made in August 2000. Chapter Four
describes in detail the Potts retirement party case, and our analysis of the outcome
of that disciplinary process. Chapter Five examines the Ruby Ridge case,
including the investigations conducted in the aftermath of the Ruby Ridge matter,
the discipline that was imposed at various stages of the process, and our evaluation
of the ultimate discipline imposed. In Chapter Five, we also describe the bonuses
and promotions that the FBI awarded to subjects of the Ruby Ridge internal
investigations while those investigations were still pending. In Chapter Six, we
describe our overall conclusions and recommendations as to the FBI’s disciplinary
process.1

III. Summary of OIG Conclusions
      In sum, we did not find sufficient evidence to conclusively establish that the
FBI systematically favors SES members in the discipline process. Because of the
low number of cases involving SES members, we could not reach such a
conclusion based on a comparison of similar cases. Moreover, differences in
individual facts made it difficult to fairly compare cases. Another impediment to
conducting a definitive comparison is the fact that legal requirements restrict the
discipline that can be imposed on members of the SES throughout the government.
Federal regulation states that a member of the SES cannot be suspended for less
than 15 days. The practical effect of this law is that in SES cases, FBI deciding
officials must choose between a letter of censure (essentially a written reprimand)
and a suspension of 15 or more days. Because it is not possible to impose a short
suspension in SES discipline cases as it is in non-SES discipline cases, a true
comparison of SES and non-SES disciplinary sanctions is even more difficult. In


    1
      This report does not discuss the allegation that an FBI employee was retaliated against for
raising claims of a double standard. The OIG is investigating that allegation and will report
separately on that matter.



                                                2
addition, we found that senior managers are able and more likely to retire while
under investigation, thereby avoiding discipline.
      We did conclude, however, that the FBI suffered and still suffers from a
strong, and not unreasonable, perception among employees that a double standard
exists within the FBI. This perception was fostered in large part by the existence
of a dual system of discipline that existed prior to August 2000, in which SES
members were judged only by other SES members. Furthermore, our review
describes several troubling cases in which the discipline imposed for SES
employees appeared unduly lenient and less severe than discipline in similar cases
involving non-SES employees. In particular, FBI senior managers were not fired
or harshly disciplined in either the Ruby Ridge or Potts retirement party cases. We
believe that in these cases, FBI senior managers were afforded different and more
favorable treatment than less senior FBI employees would have received. These
cases, which were well known within the FBI, fed the perception that senior
managers were treated more favorably than subordinate employees.
      We believe the August 2000 changes will help address to some extent the
perception of a double standard, as well as any actual bias that existed while the
dual system was in place. We also believe that the Attorney General’s decision in
July 2001 to expand the jurisdiction of the OIG to investigate misconduct in the
FBI will help address issues relating to a double standard of discipline because the
OIG will be able to review and handle most misconduct allegations against senior
FBI officials.
       We are still concerned, however, that to the extent the new system still
provides SES members with a right of appeal of discipline to a board made up of
three SES members, one of whom the appellant selects, the perception and
possibly the reality may be that a double standard of discipline may continue to
exist. We also believe that the FBI’s legal inability to impose a suspension on SES
members of less than 15 days will continue to impede its ability to discipline senior
managers appropriately and will continue to foster the perception of a double
standard of discipline. At the end of this report, we make 11 recommendations
regarding these and other issues that we believe will assist the FBI in moving
further to a disciplinary system that is fair and consistent, and that is also perceived
as fair and consistent.




                                           3
                                   CHAPTER TWO
                      FBI DISCIPLINARY STRUCTURE
CHAPTER TWO: FBI DISCIPLINARY STRUCTURE
I. FBI’s Prior Disciplinary Process
      Prior to March 1997, FBI OPR, which was part of the FBI’s Inspection
Division, was charged with the responsibility for investigating employee
misconduct matters. Adjudication was handled by a different unit, the
Administrative Summary Unit, which was part of the FBI’s Administrative
Services Division.
      In March 1997, the FBI’s disciplinary process was significantly reorganized
when FBI Director Freeh instituted several changes to that system. OPR became a
freestanding entity, reporting directly to the FBI Deputy Director, and it was given
responsibility not only for investigating misconduct but also for proposing and
deciding certain disciplinary action. An Assistant Director and a Deputy Assistant
Director headed the new OPR, which was divided into an investigations
component and an adjudications component.
      As part of the 1997 changes, the FBI developed two systems of adjudicating
disciplinary matters – one for members of the SES and one for all other
employees.2 Under the two-tier system, allegations of serious misconduct against
non-SES employees were adjudicated by OPR. The OPR Investigative Units
investigated and determined the relevant facts, and then sent the results of its
investigation to the OPR Adjudication Units, which evaluated the evidence and
recommended discipline. As part of its analysis, the Adjudication Units considered
the discipline imposed in precedent cases; that is, prior cases in similar categories
of misconduct. The discipline imposed had to be approved by the Deputy
Assistant Director or the Assistant Director of OPR.3
     Non-SES employees had the right to appeal OPR’s decision to the Assistant
Director of the FBI’s Inspection Division, who would convene a Disciplinary

    2
      The investigation of allegations of misconduct against both SES and non-SES FBI
employees was handled similarly by OPR Investigative Units. However, less serious allegations
of misconduct against lower-level employees were, and still are, assigned for investigation to
FBI field offices or Headquarters units, although they are supervised and monitored by FBI OPR.
    3
      Since October 1, 2002, the two Adjudication Unit chiefs can approve disciplinary actions
against FBI employees below grade GS-15, if the discipline is less than a 15-day suspension.



                                               4
Review Board if the employee was suspended for more than 14 days. The
Disciplinary Review Board was composed of three SES members and was chaired
by the either the FBI’s Inspection Division’s Deputy Assistant Director or
Assistant Director. The decisions of the Inspection Division or the Board
constituted the final agency action.
       The disciplinary process for SES employees was different. SES members
accused of misconduct were investigated by OPR, but they were entitled to have
factual findings and disciplinary decisions adjudicated by a Disciplinary Review
Board comprised of other SES members. For SES members accused of
misconduct, the OPR Adjudication Unit forwarded to the FBI’s Deputy Director a
package containing the results of the investigation and a summary of precedent
cases and the disciplinary findings in those cases. The package did not contain a
formal recommendation for discipline, or any final findings regarding misconduct.
If the Deputy Director determined that the allegations appeared to have been
substantiated by the OPR inquiry, the Deputy Director convened a Disciplinary
Review Board composed of five SES members. The Deputy Director picked the
five members who sat on each case. The SES Board reviewed the analysis of the
Adjudication Unit with reference to prior disciplinary cases and, where it found the
misconduct to be substantiated, the SES Board recommended disciplinary action to
the Deputy Director. The Deputy Director made the final determination, based on
the recommendation of the SES Board.4

II. New Disciplinary Process
      On August 15, 2000, former Director Freeh issued a memorandum changing
the two-tiered disciplinary system. The memorandum addressed the difference
between the adjudication of SES and non-SES cases. The memorandum noted that
the SES Board made a disciplinary recommendation for SES members based upon
its appraisal of the facts and precedents, with particular reference to the relatively
small number of prior SES disciplinary cases, “some of which predated the
strengthening of our disciplinary policies.” The memorandum concluded that the
difference in adjudication procedures, together with the problem of different
deciding officials applying different precedent bases, permitted “a perception of a
double standard which is neither warranted nor permissible, while at the same time


    4
       In cases involving FBI executives at the level of Assistant Director or above, however, all
final decisions were reserved for the Deputy Attorney General.



                                                 5
denying SES members the appellate protection enjoyed by other employees.” The
memorandum stated that the revisions would help to achieve the goal of giving
both FBI employees and the public confidence that the FBI’s disciplinary system
punishes misconduct fairly and expeditiously “without fear or favor.”
      The new procedures abolished the SES Board. They required that
adjudication of administrative inquiries involving SES employees would be
handled by OPR and would be based on the uniform application of precedent
cases, for both SES and non-SES employees, decided since March 1997. Freeh’s
August 2000 memorandum stated that “[t]he same standards for evaluating
evidence would be consistently applied to all employees with due regard for the
increased responsibilities and obligations of a senior executive.” As required by
regulation, final disciplinary authority over “key executives” was still reserved to
DOJ. Moreover, by statute (5 U.S.C. § 7543(a)), SES members still cannot be
suspended for less than a 15-day period.
       Under the new system, an official in OPR, normally the OPR Deputy
Assistant Director, proposes disciplinary action for senior executives and the OPR
Assistant Director makes the disciplinary decision. Cases involving non-SES
employees continued to be handled in the same manner as established by Freeh’s
directive in March 1997. Appeals are permitted for all disciplinary actions, except
letters of censure and oral reprimands. SES members may now appeal to the
Inspection Division, which will convene the same Disciplinary Review Board to
which all other employees have access. The Board consists of three SES members.
The chair of the Board is the Assistant Director of the Inspection Division. The
person appealing gets to select one member of the Board. The third member of the
Board is chosen at random from a list of SES members.
      In reviewing appeals, the Assistant Director of the Inspection Division or the
Disciplinary Review Board may “independently redetermine the factual findings
and/or the penalty imposed.” If a new penalty is imposed, it must be consistent
with applicable precedent. Both the Assistant Director of the Inspection Division
and the Board are required to document their findings in writing and provide the
employee a written decision. There is no requirement, however, that the Assistant
Director or the Disciplinary Review Board provide written justification for their
findings or for any change that is made to the decision of the original disciplinary
decision.
      Although there are no further internal appeals beyond the Assistant Director
or the Board, the FBI Director retains a discretionary power to change disciplinary
actions concerning all employees except those senior executives whose discipline

                                          6
must be approved by the Deputy Attorney General. According to Freeh’s August
2000 memorandum, the FBI Director’s power to change discipline, which could be
both in favor of and to the disadvantage of the employee, is “not intended to be an
additional level of appeal and will not be exercised routinely. It is intended to be
exercised only in those rare and exceptional cases when the Director considers it
necessary to correct an injustice or to prevent harm to the FBI.”
      According to the FBI’s Manual of Administrative Operations and Procedures
(MAOP), when deciding discipline the FBI should give consideration to “Bureau
policy and similar incidents previously resolved, as well as any aggravating or
mitigating circumstances of the case in point.” The MAOP states that for
discipline of SES and non-SES employees, the decision-maker should consider
possible mitigating or aggravating factors in making a final disciplinary decision.
These factors are commonly known as the “Douglas Factors,” and stem from the
Merit Systems Protection Board (MSPB) case Douglas v. Veterans’
Administration, et al., 5 M.S.P.B. 313 (1981).5 Despite the fact that very few FBI


     5
         These factors include:
•   the nature and seriousness of the offense, and its relationship to the employee’s duties,
    position and responsibilities, including whether the offense was intentional or technical or
    inadvertent, or was committed maliciously or for gain, or was frequently repeated;
•   the employee’s job level and type of employment, including supervisory or fiduciary role,
    contacts with the public, and prominence of the position;
•   the employee’s past disciplinary record;
•   the employee’s past work record, including length of service, performance on the job, ability
    to get along with fellow workers, and dependability;
•   the effect of the offense upon the employee’s ability to perform at a satisfactory level and its
    effect upon the supervisor’s confidence in the employee’s ability to perform assigned duties;
•   the notoriety of the offense or its impact upon the reputation of the agency;
•   the clarity with which the employee was on notice of any rules that were violated in
    committing the offense, or had been warned about the conduct in question;
•   potential for the employee’s rehabilitation;
•   mitigating circumstances surrounding the offense, such as unusual job tensions, personality
    problems, mental impairment, harassment, or bad faith, malice or provocation on the part of
    others involved in the matter;
(continued)


                                                   7
employees have appeal rights to the MSPB,6 the FBI considers the Douglas factors
in arriving at disciplinary decisions.
      The FBI’s MAOP also states that in most instances penalties for violations of
regulations fall within a range of penalties set forth in that manual. However, a
penalty outside of the range may be imposed where aggravating circumstances
exist. The MAOP cites as an example the case of a supervisor or Bureau official
who, because of his or her responsibility to demonstrate exemplary behavior, “may
be subject to a greater penalty than is provided in the range of penalties.”
       Pursuant to statute, however, FBI SES employees, like all other SES
employees in the federal government, cannot be suspended for fewer than 15 days.
An FBI decision-maker must therefore choose between a letter of censure and a
minimum 15-day suspension for SES employees, but may impose suspensions for
less than 15 days on non-SES employees.




(continued)
•   the adequacy and effectiveness of alternative sanctions to deter such conduct in the future by
    the employee or others;
•   consistency of the penalty with those imposed upon other employees for the same or similar
    offenses; and
•   consistency of the penalty with any applicable agency table of penalties.
     6
      Only preference-eligible veterans have appeal rights to the MSPB. Veterans are
preference-eligible if they are disabled or served on active duty during certain specified time
periods or in military campaigns.



                                                 8
                                 CHAPTER THREE
                                THE LEEU REPORT
CHAPTER THREE: THE LEEU REPORT
      The LEEU was established as a unit of FBI OPR in 1995. Its mission is to
teach ethics to FBI personnel and to monitor the overall integrity of the FBI’s
components. The unit’s first chief was FBI Special Agent Frank Perry. He told
the OIG that as chief of the unit he began to hear frequent complaints about
unaddressed misconduct by senior executives. Perry and his staff found that many
rank and file employees of the FBI believed that the discipline administered to SES
members was less severe than normally would be given to other employees of the
FBI who had engaged in similar conduct. Perry believed that the LEEU had an
obligation to look into such allegations because of the serious impact they could
have on the FBI. He noted to the OIG that a belief by employees that their
superiors are judged by a more lenient standard leads to morale problems and a
lack of respect for senior management.
      On September 1, 1999, the LEEU issued a report entitled “FBI Senior
Executive Service Accountability: A Higher Standard or a Double Standard?”
The report, which was written by Perry and two other FBI employees, concluded
that a double standard existed and recommended systemic changes to the
disciplinary process. This report was the impetus for the changes in the FBI’s
disciplinary system that were instituted in August 2000.

I. LEEU’s Statistical Analysis
      The LEEU’s report first attempted to statistically compare OPR cases
involving similar acts of misconduct between non-SES agents and SES managers.
It presented for six years the number of SES subjects of OPR investigations versus
the overall SES population in the FBI for a given year compared to the number of
non-SES subjects versus the overall non-SES FBI population for the same year.
According to the report, these numbers revealed that SES employees are
approximately three times more likely to have an OPR case initiated against them
as are non-SES employees.7 The report concluded from these statistics that OPR

     The LEEU report found that while the number of OPR cases opened on Special Agents
     7

(SA) remained fairly constant between 1994 and 1999, the number of cases opened on SES
employees during that same time period fluctuated significantly. The report did not reach a
conclusion as to why the number of OPR cases opened on SES employees fluctuated by
comparison to SA cases, but noted that the fluctuation alone was “cause for concern.” The report
(continued)


                                               9
did not shy away from opening misconduct cases on senior managers. The report
stated that “few within our ranks would argue with the claim that the investigation
of those matters is firm, fair, and thorough.”
      The report then compared the discipline administered to SES and non-SES
agents for similar misconduct. The report presented the data for various categories
of misconduct for fiscal years 1996 through 1998, including the number of SES
and non-SES subjects in several misconduct categories, the number and percentage
of those subjects who were disciplined, and the number and percentage of those
subjects who were suspended or dismissed. It concluded that the data showed a
“clear trend” that SES employees receive fewer suspensions and dismissals than
non-SES employees for the same offense. The LEEU noted, however, that the
comparison was difficult because of the small sample of SES cases and because
every case is factually different.
      We heard several concerns about the LEEU’s statistical comparison and
conclusions. First, as acknowledged in the LEEU report, comparison of cases
between the two categories of employees was difficult because of the small
number of SES cases. For example, in one of the categories, there were 98 non-
SES employees investigated and only 4 SES employees. Second, a large number
of SES employees are eligible to retire and take advantage of this option while
under investigation to avoid any penalty. Third, as discussed above, the “Douglas
Factors” are to be considered prior to making any disciplinary decision. These
factors, which include the length of an employee’s service, the level of their
responsibility, and their past work and disciplinary record, necessarily make
disciplinary decisions highly individualized.
      Despite these limitations, we believe the LEEU report brought justified
attention to a clear problem – the widespread perception throughout the FBI of a


(continued)
presented two points of view as to why the number of SES OPR cases might be greater than non-
SES cases. The first was that because of the senior position of an SES employee and the higher
level of responsibility, it would be more likely that an OPR inquiry would be initiated on alleged
misconduct. Likewise, the report noted, “unpopular decisions made by senior managers could
prompt more allegations by disgruntled subordinates.” On the other hand, the report noted that
SAs conducting investigations might be more likely to have OPR cases opened on them because
of “their greater hands-on activity with arrests, searches, informants and trial.”




                                               10
double standard of discipline. As an internal document that created an impetus to
change, the LEEU report was extremely useful and effective.

II. OIG’s Analysis
      In an attempt to evaluate whether a double standard of discipline exists in the
FBI, we reviewed the files of 15 SES disciplinary matters closed between August
2000 (when the new disciplinary system was implemented) and November 2001.
We assessed whether the discipline imposed appeared inappropriate to the facts of
the case or inconsistent with precedent. Of the 15 SES closed matters,8 we found:
        •   one dismissal in the case of Robert Hanssen, who later pled guilty to
            espionage charges;
        •   six retirements while under investigation;
        •   a 15-day suspension for a variety of offenses, including furnishing beer
            during work hours, obtaining FBI employment for his daughter, and
            making inappropriate remarks at a retirement party;
        •   a 35-day suspension for driving while under the influence of alcohol
            and resisting arrest;
        •   a letter of censure for failure to report a matter to OPR;
        •   a letter of censure for making unprofessional remarks to FBI Inspectors;
        •   an oral reprimand for disclosure of Privacy Act-protected information to
            the media; and
        •   three “no actions” in matters involving alleged misuse of a government
            vehicle, improper remarks, and improper strip-search of agents.
      Our review was limited by the same factors that limited the statistical review
of the LEEU. Our review did not find that any of the 15 disciplinary decisions was
obviously lenient or unfair, or inconsistent with the precedent of discipline
imposed on non-SES employees in like cases.
     Nevertheless, our review of these cases raised several troubling issues. First,
out of 19 SES disciplinary matters that were closed between August 2000 and


    8
     We did not include the four SES matters relating to Ruby Ridge, which we describe and
analyze extensively in Chapter Five of this report.



                                             11
November 2001 (which includes, in addition to the 15 discussed above, the Ruby
Ridge cases discussed in Chapter Five), we found that 6 SES employees, or almost
one-third, retired while under investigation. The ability to retire with a pension in
order to avoid disciplinary action is not as commonly available to less senior FBI
employees. Also, the ability to retire while under investigation fuels the perception
that SES employees can avoid discipline and receive preferential treatment.
Second, because of the statutory restrictions on suspensions for SES employees,
we considered only whether the SES employees who received letters of censure
should have received a 15-day suspension instead – the next level of discipline
available. In some cases, it appears that a shorter suspension may have been
appropriate discipline, but that option was not available to the FBI.
      In sum, a comparison of SES versus non-SES discipline did not yield
definitive conclusions about whether a systemic double standard exists in the FBI.
But there were four troubling cases of disparate discipline for SES members that
the LEEU report noted, which we examined in detail: the investigation of a
Special Agent in Charge (SAC) who behaved inappropriately in a hospital
emergency room, an Assistant Director who lost his pager, the Potts retirement
party case, and the Ruby Ridge case. These cases reveal troubling instances of
light discipline for SES members. They also fostered a strong perception of a
double standard within the FBI. In the rest of this chapter and in the two chapters
that follow, we discuss these cases in detail.

III. Unprofessional Behavior of a Special Agent in Charge
      In 1997, an SAC of an FBI field office was involved in an altercation with
hospital staff after he took his elderly father to the emergency room for treatment.
Three doctors, two nurses, and three local police officers described the SAC as
probably intoxicated and said that his behavior was loud, belligerent, inappropriate,
and frightening. Several witnesses described being afraid for their safety. Because
of his actions, hospital personnel asked the SAC to remove his weapon. The SAC
refused to do so, and local police were called to the hospital. The SAC initially
refused to produce identification, and a confrontation with the police ensued. He
was sent home by the police with his fiancée. The SAC later refused to cooperate
with the local chief of police who was conducting an investigation of the matter.
When interviewed by OPR, the SAC admitted to having had one 12-ounce beer
several hours before the incident, denied making statements about drinking beer to
hospital staff, and denied making abusive statements to the police officer at the
hospital.


                                         12
     OPR concluded that the SAC had committed misconduct. In evaluating the
appropriate discipline, OPR cited five similar cases as precedent:
   •    A Supervisory Special Agent (SSA) received a seven-day suspension and
        one-year probation after he was found to have used “abusive/offensive
        language” toward employees at a hotel where he was staying. He was
        alleged to have been intoxicated. He was found to have been suffering from
        job-related stress and depression, which were viewed as mitigating factors.
   •    An SSA was suspended for 14 days and placed on probation for six months
        for making loud, abusive comments after hours to the FBI inspection team
        that was inspecting his office.
   •    An SAC was suspended for 21 days, put on probation for 6 months, and
        received a “loss of effectiveness” transfer to FBI Headquarters after he was
        arrested for drunk driving and then requested and obtained assistance from a
        colonel in the highway patrol in obtaining his release at the arrest scene.
   •    An FBI Section Chief was censured for engaging in a verbal altercation with
        an FBI employee in the parking garage because the Section Chief believed
        that the other employee was driving in a dangerous manner and may not
        have been an FBI employee.
   •    An SAC was censured and received a transfer to FBI Headquarters after
        improperly upgrading to business class during a flight to Paris while the
        agent accompanying him flew in tourist class and for inadequately preparing
        for the meetings in Paris.9
      An SES Board was convened and recommended that the SAC involved in the
hospital altercation be immediately removed from his position and be given a loss
of effectiveness transfer to FBI Headquarters. The Board proposed that the
transfer order specify that the transfer was to further the mission and needs of the
FBI and “should not be considered a punitive measure.” The Board also
recommended a fitness-for-duty examination in order to determine the effects of
alcohol, stress, and medication on the SAC’s actions.
      The SAC was placed on administrative leave pending the receipt of the
fitness-for-duty report. The SAC was examined and the doctor concluded that the
SAC’s depressive condition, continued use of alcohol, and recurrent need for the

   9
       It is not clear why this last case was considered to be comparable.



                                                 13
medication Prednisone “contribute to a vulnerability to recurrent inappropriate
behavior, mood instability, and impaired judgment.” The doctor recommended a
course of treatment and that the SAC remain in a limited-duty position until he
recovered. The doctor’s report stated that the SAC had reported temper and other
problems when taking Prednisone, but the report noted that the SAC was not
taking Prednisone on the day in question and had not taken it for about “a month
before the incident.”
      The SES Board reconvened and concluded that the SAC’s behavior, while
otherwise actionable, was mitigated heavily by the effects of his medication. The
Board recommended that no further action, beyond the SAC’s transfer to FBI
Headquarters, was necessary. The Board also noted that it was aware of the SAC’s
intention to retire before the end of the year.
       The FBI Deputy Director at the time, Robert Bryant, wrote the SAC a letter
stating that although the Board found his conduct to be “totally unacceptable and
unprofessional,” it had recommended no disciplinary action because his actions
were significantly mitigated by the effects of prescription medications he was
taking at the time of the incident. Bryant stated in the letter that he was “seriously
disturbed by the damage which [the SAC’s] conduct caused,” noted that the
negative impact of his behavior was enhanced by his status as a member of the
SES, and strongly suggested that the SAC make amends with both the hospital
staff and local police. Significantly, however, the file copy of the letter included
specific instructions that the letter should be personally presented to the SAC and
stated that the letter was for “information only and that no copy will be designated
to the employee’s official personnel file.”10
      This case was cited by the LEEU report as an example of a disparity between
the discipline imposed on SES and non-SES employees. We agree. There was no
evidence in the record about the side effects of the SAC’s medications, which the
SES Board referred to as evidence to heavily mitigate discipline. But the doctor’s
report was clear that the SAC had not taken Prednisone on the day of the incident
and had not taken it for about one month prior to the incident.
    The outcome of this case was troubling. The ultimate result – removal of the
SAC from his supervisory position and a retirement – seems only minimally


    10
      Former Deputy Director Bryant, now retired, did not respond to our requests to interview
him on this matter.



                                              14
acceptable, and other aspects of the case raise questions. For example, it is unclear
why the removal was described as “nonpunitive.” Most disturbing, the SES
Board’s reliance on the SAC’s medication as mitigating evidence appears to have
stretched the actual facts. Although the fitness-for-duty report clearly noted that
the SAC had not taken medication for one month prior to the incident in question,
the Board relied heavily on the SAC’s use of medication as a mitigating factor.

IV. Discipline of SES Employees for Loss of FBI Property
      Another case discussed in the LEEU report was the discipline imposed when
an Assistant Director lost his pager. According to the report, the discipline
imposed on FBI personnel for loss of FBI property traditionally had been a letter of
censure.11 In July 1996, when an Assistant Director lost his pager, the Personnel
Division recommended that a letter of censure was appropriate and in keeping with
precedent. Deputy Director Bryant decided, however, that the Assistant Director
should receive an oral reprimand “due to the minimal monetary and operational
value of the lost equipment.” Later in 1996, the Deputy Director asked the
Personnel Division to circulate an employee notice articulating a new position that
an oral reprimand was the appropriate sanction for this type of loss. OPR internal
records also noted that this case set “new precedent” for this type of loss.
      This policy change was never formally distributed to the field, where most
minor misconduct cases like this are resolved. The LEEU report stated that,
probably through word-of-mouth or through contact with OPR, the majority of
pager losses since 1996 against special agents have resulted in findings of “no
action” or in oral reprimands. However, the report asserted that from the time the
Assistant Director received his oral reprimand to the time of the LEEU report, five
special agents had received letters of censure for loss of their pagers. The report
concluded that “the disparate and favorable treatment could not be any more
obvious.”
      We did not find that the policy change itself necessarily reflected a double
standard. We were concerned, however, by the fact that five line agents continued
to be punished under the old standard. This discrepancy reflects a failure to ensure
that FBI disciplinary policies are adequately communicated to the field.

    11
      The LEEU report noted, however, that for unexplained reasons one SAC had received
only an oral reprimand for the loss of his pager in June 1995. However, in November 1995
another SAC lost his pager and received a letter of censure.



                                            15
Regardless of the reasons for it, this lack of consistency should not be tolerated
because it results in the perception of a double standard.
      In the next two chapters of this report, we describe the Potts retirement party
and Ruby Ridge cases, two well-known incidents that exacerbated the perception
of a double standard of discipline in the FBI.




                                          16
                               CHAPTER FOUR
                   THE POTTS RETIREMENT PARTY
CHAPTER FOUR: THE POTTS RETIREMENT PARTY
      The Potts retirement party is widely believed within and outside the FBI to
be an egregious example of senior managers being excused or lightly disciplined
for misconduct that would have resulted in severe sanctions if less senior
employees had been involved. We interviewed numerous FBI employees,
including members of the SES, who believed that the disciplinary decisions
stemming from this case were fundamentally flawed. We agree. This chapter
examines that case and provides our assessment of it.

I.   Background
      When Deputy Director Larry Potts retired from the FBI in 1997, a dinner was
held in his honor in Arlington, Virginia, on October 9, 1997. The Assistant
Director of the FBI’s Training Division, Joseph Wolfinger, was responsible for
coordinating the retirement dinner.
       On October 2, 1997, seven days before the dinner, Wolfinger directed
Training Division Section Chief John Louden to send an electronic communication
(EC) to the field announcing an SAC conference at the FBI Academy in Quantico,
Virginia, to discuss “New Agent Curriculum and Training” on October 10, 1997,
the day after the dinner. The announcement did not contain a conference schedule,
a starting or concluding time, a training identification number, or travel
instructions. The conference was scheduled for a Friday, normally a travel day for
FBI employees following the conclusion of conferences.
      The Potts retirement dinner was attended by approximately 140 people,
including many SACs. The following day the conference was held at the FBI
Academy. Only five people attended – Wolfinger, Louden, two SACs, and an
individual who was not an SAC. The FBI Supervisory Special Agent (SSA) who
was in charge of the presentation was informed about the event on October 7.
There was no formal agenda for the conference. The SSA reported that he
discussed the “integrated case” – a fictional investigation for training purposes –
which was to be a part of the new agents’ training. The “conference” lasted no
longer than 90 minutes and possibly as little as 45 minutes.
       It was alleged that the conference was scheduled for October 10 to provide
justification for the FBI to pay for the travel of SACs to attend the Potts retirement
dinner. Under FBI policy, which was unwritten at the time but which we


                                          17
understand was commonly known, travel to a retirement function was considered
personal business and not reimbursable by the government. It was further alleged
that seven SACs falsified travel vouchers in order to receive reimbursement for
travel to the dinner. OPR and the Department of Justice Office of Professional
Responsibility (DOJ OPR) jointly investigated the matter. While the investigation
was ongoing, four SACs who were subjects of the investigation retired. After the
investigation, OPR referred the actions of four other SACs, Wolfinger, and Louden
to the SES Board for disciplinary action.

II. The Evidence
      The evidence in this case was described in a memorandum dated November
18, 1998, from FBI OPR Assistant Director Michael DeFeo to FBI Deputy
Director Robert Bryant. We summarize that evidence below.

    A. Training Division Personnel
      Assistant Director Wolfinger acknowledged that he instructed Louden to
prepare the EC announcing the training. Wolfinger said that he knew that a
number of SACs would be in the Washington, D.C. area for Potts’ retirement
party. He said he wanted to take advantage of their being in town to hold a
conference on training. Wolfinger said that he would not have convened a
conference like the one planned if the SACs had not been coming to Washington
already. Since the SACs were going to be in the area anyway, he said he wanted
them to travel to the FBI Training Academy to “talk to us about something that
was very important to the Academy and [to him] and the FBI” – the curriculum
and training for new agents.
     Louden told OPR that the conference was Wolfinger’s idea and was
organized after the Potts dinner was scheduled. When asked whether the
conference was set up to legitimize travel to the Potts dinner, Louden stated:
             I would have to defer to what Mr. Wolfinger was thinking
       with that because when he brought it up to me, my idea was yeah,
       the SACs can obviously use this as a mechanism, but I looked at it
       as a way to take advantage of SACs being here.
      Louden admitted there was no perceived need for the conference prior to the
Potts function and stated that he did not believe an objective observer would
conclude this was a legitimate conference, as opposed to a cover for SAC travel.
Louden was polygraphed, and the results indicated no deception in his denial that


                                         18
the purpose of the conference was to increase the number of attendees at the
retirement party. However, the important issue in this matter was not whether the
conference was organized to increase attendance at the dinner, but rather whether
the purpose of the conference was to legitimize travel for those who were already
planning to attend, something Loudon essentially admitted in his interview. OPR
recommended that an SES Board determine whether Wolfinger and Louden
attempted to waste or misapply government resources or neglected their duty by
inviting SACs to a conference of dubious substance to justify reimbursement for
travel to the Potts retirement party.

     B.    SAC Herbert Collins
      Herbert Collins, then the SAC of the Chicago field office, filed travel
documents stating that he was attending a “conference” in Washington, D.C. on
October 9-10, 1997. He subsequently told OPR investigators that this reason was
not correct and that the justification on the travel documents should have been to
attend Potts’ retirement party. According to Collins, at a June 1997 meeting of the
FBI’s SAC Advisory Committee, of which Collins was a member, then FBI
Deputy Director William Esposito had authorized members of the Advisory
Committee to travel to attend retirement functions for senior FBI officials.12
Collins told OPR that he had traveled to another retirement function in June 1997
for the former SAC in Detroit. With respect to the Potts matter, Collins initially
stated that he had indicated on the October 1997 voucher that the purpose of his
travel was to attend the retirement function. When later confronted with his travel
voucher, which stated that he the purpose was to attend a conference, he said that it
was an error on his part not to review the travel documents prior to signing them.
OPR referred to the SES Board the question of whether Collins relied on the

    12
       OPR tried to determine the validity of this explanation. Esposito, who by then had retired,
refused to be interviewed, but he informed OPR that he never changed any policy regarding who
could attend a retirement function at government expense. Some individuals present at the June
1997 meeting thought that Esposito was authorizing travel of all SACs to retirement functions;
others thought that he was authorizing only the travel of SACs on the Advisory Committee. As
part of its investigation regarding this issue, OPR interviewed SAC Advisory Committee
member Don Clark, who stated that he believed such travel was authorized and that he had
attended two such retirement functions and submitted vouchers to the FBI. An examination of
those vouchers revealed that Clark’s voucher did not reflect that he had traveled to attend a
retirement function, but rather stated “Attend meetings at FBIHQ” on one and “Attend Meeting –
Inspection Div.” on the second. Clark subsequently became a subject of the investigation.



                                               19
Esposito conversation as justification for travel to retirement parties (and
negligently overlooked his staff’s use of the justification of “meetings” or
“conferences”) or whether he used the justification of attending a conference
because he was concerned that attending a retirement party would be rejected as a
justification.

     C. SAC Van Harp
      Van Harp, then the SAC of the Cleveland, Ohio field office and now the
Assistant Director-In-Charge of the Washington field office, filed a travel request
form stating that he was traveling to attend a “Conference.” However, he did not
attend the October 10 training conference. Additional travel documents filed by
Harp in October 1997 stated that he had traveled to Washington, D.C. for a Career
Board meeting on October 9 and 10, 1997.13 Although Harp was a member of the
Career Board, the Career Board did not meet on either October 9 or 10.
      When questioned by OPR, Harp acknowledged that the Career Board had not
met on October 9 and 10. He stated that he used the term “Career Board” to mean
business surrounding his role on the Career Board and not a specific meeting.
Harp stated in a sworn deposition to DOJ OPR that his travel to Washington was
really to attend meetings at FBI Headquarters. The evidence showed that Harp had
no scheduled appointments, but he claimed to have made unscheduled visits to
whoever was available at FBI Headquarters on matters relating to the Cleveland
field office. He identified 11 senior-level executives with whom he “probably” or
“could have” met. None of the 11 recalled specifically whether they met with
Harp on that day, but several stated that they had met with him several times
during that fall. One individual was on leave the day that Harp said he might have
met with him. OPR referred to the SES Board the question of whether Harp’s
rationale for traveling to FBI Headquarters at the time of the Potts party constituted
false or improper justification for official travel.

     D. SAC Victor Gonzalez
    Victor Gonzalez, then a SAC in the New York Division, filed travel
documents listing “travel to FBIHQ on Official Business” as his justification and
“Management Travel” as his purpose. Gonzalez told OPR that the purpose of his

    13
       The Career Board is a group of SES members who meet periodically to review the
applications of FBI employees for management positions in the FBI.



                                             20
travel was to assist an employee seeking a hardship transfer, to meet with a specific
FBI official regarding his division’s pending move, and to attend the Potts dinner.
The evidence showed that he had no scheduled appointments at FBI Headquarters
on October 9 or 10. Gonzalez admitted never going to Headquarters to discuss the
hardship transfer, but he claimed to have met with a specific employee at an FBI
offsite location about the move. FBI records revealed that the specific employee
that he claimed to have met with was out of the country that entire week. Gonzalez
identified two other employees that he “likely” met with, but neither could recall
meeting with him. OPR referred to the SES Board the question of whether
Gonzalez’s rationale for traveling to FBI Headquarters at the time of the Potts
party constituted false or improper justification for official travel.

     E.   SAC Jack Daulton
      Jack Daulton, then the SAC of the Atlanta Division, stated on his travel
forms that his travel to Washington on October 9, 1997, was to “attend New Agent
Curriculum Training Conference.” Daulton never attended the conference. He
told OPR that he intended to go to the conference, but the time of the conference
was later than he had expected and made it impossible for him to attend because of
his return flight to Atlanta.
       Daulton told OPR that he had been told originally that the conference would
start between 9 and 10 a.m. and that he had scheduled his return flight to Atlanta
for 1:25 p.m. He said that he learned at the Potts retirement party that the
conference would not start until 11 or 11:30 a.m. because of a new agent class
graduation at the Academy. Daulton said that he started to go to Quantico the next
morning, but then decided that he would not be able to make his flight. He stated
that it was not his fault that he could not attend the conference because of the time
change. He also said that he did not attempt to change the time of his flight
because he felt he should get back to Atlanta. Daulton said that he arrived in
Atlanta after 3 p.m. and went home.
      Daulton was later reinterviewed by OPR and was asked about the fact that his
rental car was returned to the Washington airport at 8:21 a.m. and his car in Atlanta
was taken out of the Atlanta airport parking lot at 12:12 p.m. He responded that he
did not recall returning to Atlanta that early but that he must have decided that he
would not be able to attend the conference and make his 1:25 p.m. flight, so he
took an earlier flight.
      OPR recommended that the SES Board consider whether Daulton had
intended to travel to the conference at Quantico and was deterred from attending

                                         21
because of an unexpected change in schedule, or whether he used the conference as
justification for travel to Washington without any intention of attending the
conference and lied under oath to OPR investigators. The SES Board later
requested that Daulton be polygraphed regarding whether, on the morning of
October 10, he actually intended to attend the conference. Daulton passed the
polygraph test.

    F.   Precedent
     As disciplinary precedent, OPR provided two categories of cases to be
considered by the SES Board. The first was “False voucher, misuse of government
property/position.” It cited 11 cases as precedent, including:
         • A former FBI Director was criticized for, among other things, abusing
           government travel for personal reasons and ordered to reimburse the
           government for the cost of the personal travel. He eventually was
           removed as the FBI Director.
         • An SAC was censured for transporting an unauthorized passenger in
           an FBI vehicle and using that vehicle for personal travel.
         • An SAC was found to have used poor judgment in traveling to deliver
           a brief speech to a criminal justice class in which his son was a
           student. The Deputy Director found that while FBI regulations were
           followed with respect to reporting the travel, a nearby executive could
           have delivered the speech and the SAC's trip constituted poor
           judgment because it created the impression that government funds
           were expended for travel primarily for a personal reason. The SAC
           was not found to have lacked candor when he omitted the fact that his
           son was a student in the class, but was found to have used poor
           judgment.
         • An SAC was censured and received a transfer to FBI Headquarters
           after improperly upgrading to business class during a flight to Paris
           while the agent accompanying him flew in tourist class and for
           inadequately preparing for the meetings in Paris.
         • No action was taken against a supervisory agent who claimed travel
           expenses to attend a “Tech. Conference” which appeared to have been
           scheduled to justify travel to a retirement dinner in New York. The
           employee had inquired about whether there would been an official
           function in New York to justify the travel as official business when he

                                        22
           called to say he would attend the dinner. The technical conference had
           been scheduled to discuss issues relating to the technical investigative
           program. The employee stated that while there was no structured
           conference with a prepared syllabus, course outline, or designated
           meeting place, he toured a two-story structure in New Jersey called the
           Northeast Regional Technical Training Center and he had technical
           discussions with other attendees. OPR found no misconduct because
           the employee acted in reliance on a teletype providing a number for
           official travel and announcing a “facially valid conference,” had his
           travel approved by his Assistant Special Agent in Charge, and engaged
           in activities and discussions on technical matters. The employee’s
           travel documents were found to be truthful, and he was found to be
           completely candid when interviewed.
        • An agent was censured after he provided a voucher with receipts from
          a taxi service that did not do business in the area that he visited. OPR
          determined that the agent had incurred the expenses and there was no
          intent to defraud.
        • A probationary agent was suspended for three days and placed on six
          months’ probation after he claimed reimbursement for a travel day
          when he actually returned a day earlier.
        • A support employee was suspended for 14 days and placed on
          probation for six months after she was found to have falsified
          documents by indicating that she had attended a computer training
          class when, in fact, she had not.
        • A GS-14 in the Personnel Division was suspended for 30 days for
          participating in the misuse of an FBI-leased vehicle. The employee
          accompanied a detective working with the FBI on two vacation trips
          and unauthorized local travel in the leased vehicle.
        • A Unit Chief resigned after being proposed for dismissal for having
          lied about the purpose of a trip to Los Angeles and his personal
          relationship with the secretary who accompanied him. Voucher fraud
          also was involved because the voucher misstated the purpose of his
          trip.
     The second category of cases concerned “Lying under oath/lack of candor.”
The memorandum cited the following cases:


                                       23
• An agent was suspended for 30 days for a misdemeanor battery
  conviction for striking his wife. He was found to have lacked candor
  in his sworn statement when he denied that he had hit her.
• A Language Specialist was dismissed for unauthorized contacts with
  foreign officials and intelligence officers, receipt of things of value
  from them, and a lack of candor in his “convoluted and contradictory
  responses” to questions about his contacts.
• Two agents were proposed for dismissal, the first for lying under oath
  during an administrative inquiry, falsification of Bureau forms,
  misappropriation and conversion of Bureau ammunition and
  unauthorized disclosure. The second was proposed for dismissal as a
  result of her unauthorized disclosure and lying under oath during the
  administrative inquiry.
• An agent was dismissed for failing to assist law enforcement in
  locating her boyfriend, associating with that individual, improper
  disposition of evidence and lack of candor by lying during the
  administrative inquiry about the boyfriend’s use of drugs.
• An agent was dismissed for lying under oath about the circumstances
  of an accident in which he was arrested for driving under the influence
  of alcohol after leaving the scene.
• A supervisory agent resigned after he was proposed for dismissal for
  converting Bureau property for his personal use, misappropriation of
  funds, and a lack of candor during the administrative inquiry.
• A supervisory agent was proposed for a demotion, a 50-day
  suspension, and one-year probation after he misused his Bureau car,
  committed time and attendance violations, misused his Bureau calling
  card, and conducted an affair with his neighbor while on duty. At his
  hearing, the employee lacked candor and was informed that his lack of
  candor would be investigated. The employee resigned prior to the
  inquiry into his lack of candor.
• An agent was dismissed for lying under oath after he misused his
  Bureau car to transport his daughter from day care, committed time
  and attendance violations, used poor judgment when he conducted an
  unauthorized traffic stop, and falsely stated the number of times he had
  improperly transported his daughter.


                               24
          • An agent was dismissed for repeated falsehoods after he falsely
            implicated a former Bureau employee and a local police officer for
            possessing an MP-5 shoulder weapon, which resulted in a theft case
            being opened against the former employee.
          • A Unit Chief resigned after being advised that he would be proposed
            for dismissal as a result of his lying under oath about the
            circumstances of his arrest for masturbating in a national park.
          • An agent resigned after being advised she would be proposed for
            dismissal regarding false statements she made at a National
            Transportation Safety Board hearing and for lying under oath during
            the administrative inquiry.
          • A probationary agent was dismissed when she lied to a staff counselor
            and misled two class counselors about her involvement with another
            married agent in her New Agent’s Class. Her actions were determined
            to have violated the FBI Academy Honor Code.
          • An agent resigned after being advised he would be proposed for
            dismissal after he lied about the second misuse of his government
            credit card while on probation for the first misuse.

III.   The Disciplinary Decisions

       A. The SES Board
      The initial SES Board met regarding the Potts party cases on December 14,
1998. The Board consisted of five SES members from FBI Headquarters.
According to notes of the December 14 meeting, the five SES Board members and
six non-Board observers, including OPR Assistant Director DeFeo, were present.
       DeFeo began the SES Board meeting by making a presentation to the Board
about the investigation of the Potts party issues. DeFeo noted in his presentation
that this investigation was conducted jointly with DOJ OPR and that as a result
DOJ OPR would be “watching” what they did. According to observers, Thomas
Coyle, the Assistant Director of the Inspection Division and a member of the
Board, stated during the meeting that he did not care what the Department thought
and then went on to note that he would not rely on the forms (meaning form 540




                                        25
(request for travel authorization) and form 1012 (travel reimbursement voucher)).14
Coyle later told the OIG that he was sympathetic to the fact that SACs are
extremely busy and cannot give their personal attention to administrative details.
      Notes taken by observers of the meeting indicate that the Board initially
discussed whether the October 10 training conference was a sham. The Board
concluded that the conference was not a sham, but that the planners exercised poor
judgment in not properly preparing for it. The notes indicate that one Board
member stated that he believed that a preponderance of the evidence showed that
the conference was organized solely to justify travel to the party and that a letter of
censure was insufficient for misconduct.
       According to notes of the meeting, the Board discussed the unclear facts
surrounding former Deputy Director Esposito’s encouragement to attend
retirement events. This was viewed as a mitigating factor for the SACs who
attended the Potts party.15 The notes from the Board meeting indicate that the
Board felt there was “no harm, no foul” with respect to Collins’ trip, and that he
did conduct some business during his trip. With respect to Gonzalez, the notes
stated that the Board concluded it was a “bad practice,” and for Harp and Clark the
notes state, “seems clear he did some business.” For Daulton, the notes state
“reluctance to find lack of candor on a marginal fact.” It appears from the notes
that there was some discussion as to whether the SACs used poor judgment, but the
consensus of the Board was that the policies on SAC travel were “too unclear for
culpability.”16


     14
       At the time, Coyle, like Potts, was a subject of the Ruby Ridge investigation, which was
ongoing at the time of the Potts party SES Board. Allegedly, Coyle had selected one of the FBI
investigators who reviewed the original Ruby Ridge incident and that investigator was later
found by DOJ OPR to have had a potential conflict of interest. See discussion of the Ruby Ridge
case in Chapter Five.
     15
        The OPR memorandum summarizing the evidence in the Potts case was unclear regarding
the strength of the evidence on this issue. Esposito apparently indicated that he had not changed
the policy to allow such travel, and certainly no written change had ever been issued. Officials
in the FBI’s Finance Division also stated that the government-wide policy clearly prohibited
such reimbursement, and that they would have advised Esposito, if they had been asked or had
known about a purported change, that no such change was possible.
     16
       While the SES Board may have thought the policy was unclear, an FBI Finance Division
official told FBI OPR that memoranda issued by the Department prohibited reimbursement for
retirement parties unless an employee had been designated as an official representative of the
(continued)


                                               26
     Two observers’ notes indicate that the Board voted for a letter of censure for
Wolfinger, an oral reprimand for Louden, no action for Clark, Collins, Gonzalez,
and Harp except restitution of their travel expenses, and a polygraph for Daulton.
      The Board met two days later, on December 16, 1998. Several witnesses told
us that they believed that the Board met again because it had not finished its
deliberations on the matter. Notes from this meeting indicate otherwise, and we
were told by one observer that Board Chair Rubin Garcia, who at the time was
Assistant Director of the Personnel Division, reconvened the Board because he
believed that the initial decisions were inappropriate. Garcia told the OIG that he
could not recall why the second Board meeting was convened.
      Notes from the December 16 meeting show that the issue of whether the
October 10 conference was a sham was discussed again. The notes state that there
was a “strong presentation” by OPR Assistant Director DeFeo citing statements of
several witnesses that the conference was a sham. One of the observers told the
OIG that although he could not recall specifically, he believed that the Board did
not change its initial finding that the conference had the appearance of impropriety
but was not a sham. The notes show that the Board was unanimous in its finding
that some adverse action was appropriate for Wolfinger and that a letter of censure
was appropriate for Louden in light of his subordinate position to Wolfinger.
       According to notes of the meeting, the Board also discussed whether there
should be any changes to the recommendation of no discipline for Clark and
Collins. The Board decided that Clark and Collins reasonably relied on Esposito’s
encouragement to attend FBI retirement events, but the Board was concerned that
their travel vouchers did not reflect that they had traveled for that purpose. The
Board voted four to one in favor of a letter of censure for both Clark and Collins
for “inattention to detail” in filling out the travel vouchers. The notes reflect that
in discussing Harp, the Board felt that it could not disprove his assertion that he
talked with someone about the Cleveland Field Office during his visit to
Washington, so there was no “candor issue.” The notes indicate that the Board
concluded that Harp “did (probably) visit people” at FBI Headquarters, but that the


(continued)
agency, such as when presenting a plaque. All of the subjects interviewed by FBI OPR indicated
that they understood that obtaining reimbursement for attending a retirement party was
impermissible, although Clark and Collins argued that Esposito’s comments had at least changed
the rules for the SAC Advisory Committee.



                                             27
meetings were not necessary. The Board voted unanimously to censure both Harp
and Gonzalez for unauthorized and inappropriate travel.
       On December 24, 1998, the SES Board issued a memorandum reporting its
recommendations. The Board recommended that Louden be suspended for 15
days for neglect of duty resulting in a perception of impropriety. We were unable
to determine how it came about that Louden’s punishment changed from the letter
of censure agreed to during the previous Board meeting. The memorandum
recommended that Clark and Collins be issued letters of censure for inattention to
detail because they misstated the purpose of their travel on the FBI travel forms.17
It also recommended that Gonzalez and Harp be issued letters of censure for travel
without adequate justification, in violation of the Federal Travel Regulations. The
Board requested a polygraph for Daulton. The December 24 memorandum also
indicated that a separate recommendation was to be issued as to Wolfinger. We
were told by DeFeo that no recommendation as to Wolfinger was ultimately made,
primarily because he was expected to retire but also because it was well known
that his wife was very ill.
      Former FBI Deputy Director Thomas Pickard and former Assistant Director
Garcia, two members of the Board, told us that the Board took the Potts retirement
party matter very seriously. They said that the Board believed most of the
responsibility for the problems lay with the conference planners – Wolfinger and
Louden. Both Pickard and Garcia also said that, as senior executives, the Board
members were sensitive to the explanations offered by Clark and Collins that they
had signed forms without really looking at them. Garcia said that all of the Board
members were busy and knew what it was like to be in that position. Garcia stated
that “inattention to detail” is different for a senior executive than it is for a line
agent because of the amount of matters on a senior executive’s agenda each day.
      Garcia stated that the Board also was sensitive to the situation of Harp and
Gonzalez because SES-level employees frequently do not have a written or
planned agenda when they travel to FBI Headquarters, and it is possible to get a lot
of work done just “walking the corridors.” He said that the Board believed it was
possible that Harp and Gonzalez might not recall exactly with whom they met at
Headquarters because there is no requirement that they document what they did
there. Pickard said that to the extent that the SACs got work done while in
Washington for the party, it was not a waste of government money. Garcia said

    17
         Collins retired on December 31, 1998, so his letter of censure was never issued.



                                                 28
that the Board ended up concluding that Harp and Gonzalez should have had
clearer agendas and that, without more structured plans, their travel was
inappropriate. Garcia also said that both Harp and Gonzalez might have received a
short suspension if that had been an option.18

     B.    The Deputy Director’s Decision
      Deputy Director Bryant issued the letters of censure as recommended by the
Board. However, he decided that the recommendation of a 15-day suspension for
Louden was “unnecessarily harsh,” because he believed that Louden neglected his
duty but did not engage in willful misconduct. Instead, Bryant decided that a letter
of censure to Louden was sufficient. Bryant has retired from the FBI, and he did
not respond to our requests to interview him on this matter.

     C. Oversight By DOJ OPR
      On September 12, 2000, DOJ OPR wrote a memorandum to FBI OPR
suggesting that the evidence supported findings of serious misconduct by
Gonzalez, Harp, and Louden and warranted consideration of more significant
discipline. DOJ OPR stated in its memorandum that the fact that the three received
only letters of censure raised concerns that certain evidence in the file was not
given sufficient consideration. FBI OPR Assistant Director DeFeo responded on
November 9, 2000, that the matter had been decided by an FBI SES Board and,
although the system of convening an SES Board to make disciplinary decision on
SES members had been disbanded in the summer of 2000, he did not believe that
FBI OPR had the authority to review the SES Board’s decisions.

IV. OIG Analysis
      A review of the Potts retirement party discipline matter four years after the
events is difficult because the facts were not entirely clear, and the findings in
many instances rested on an assessment of the credibility of statements made by
the subjects. Moreover, the fact that an important witness, Esposito, retired and


    18
        On December 21, 2001, the General Accounting Office (GAO) issued a four-page letter
describing the results of its review of OPR’s investigation of the Potts party incident. The GAO
concluded that the investigation of the matter by OPR had been thorough. In its letter, the GAO
set forth the discipline that the subjects received, but it did not comment on the appropriateness
of the discipline.



                                                29
refused to be interviewed made credibility assessments of certain subjects’
statements more difficult.
      Nonetheless, given the strong evidence against the subjects, we believe that
the SES Board came to the result that it did because it gave undue weight to the
subjects’ explanations that at a minimum were uncorroborated and in many
instances were refuted. The Board also appeared to accept some of the subjects’
contentions that meeting with officials while walking the hallways of FBI
Headquarters was sufficient to support a claim that they had accomplished business
while in Washington. We do not believe that non-SES employees would have
received a similar “benefit of the doubt,” or that their punishment would have been
the same given similar circumstances.
       In addition, because of Wolfinger’s impending retirement, Louden was the
only Training Division official recommended for discipline by the Board. We did
not find the Board’s recommendation for a 15-day suspension of Louden to be
unreasonable, and we believe the Deputy Director’s decision to reduce the penalty
to a letter of censure is highly questionable. Several officials we spoke to felt that
this reduction was appropriate because Wolfinger, Louden’s supervisor, had retired
and would not be disciplined at all. Others felt that such a light sanction for
Louden was inappropriate because he should not have followed orders to do
something improper. These officials believed that reporting questionable orders to
OPR or an FBI official was the appropriate course of action, and Louden’s failure
to do that merited serious discipline. We agree with the position that an employee
at the level of a section chief could have and should have refused to follow
Wolfinger’s orders or reported the matter to OPR. In addition, we believe the
discipline ultimately imposed on Louden was unduly lenient.
      One of the allegations we reviewed was whether Coyle’s participation on the
SES Board was inappropriate because of a conflict of interest. We concluded that
Coyle should not have participated because, at a minimum, an appearance of a
conflict of interest existed, if not an actual conflict of interest. At the time of the
Board decisions, Coyle and Potts were subjects in the Ruby Ridge investigation.
The significant controversy about Ruby Ridge and the fact that many FBI
managers believed that Potts was treated unfairly because of the Ruby Ridge
allegations cannot be ignored. It was well known that many people wanted to
attend the Potts retirement party to show support for him because of the Ruby
Ridge investigation. That attitude was likely to be especially strong for someone
like Coyle who also was a Ruby Ridge subject. We believe that Coyle should have
recused himself or been removed from these Board proceedings.


                                          30
      It is also clear that the decisions in the Potts party cases exacerbated the
perception of a double standard throughout the FBI. First, it was widely believed
that agents in the field would have been summarily fired for voucher fraud and
false statements under the Director's “bright line” rule. While it is difficult to
directly compare one case to another, we note that in a precedent case that appears
on point, a Unit Chief resigned after being proposed for dismissal for having lied
about the purpose of a trip to Los Angeles and his personal relationship with the
secretary who accompanied him. Voucher fraud also was involved because the
Unit Chief’s voucher misstated the purpose of his trip.
      Under the FBI disciplinary system in place at the time of the Potts party, FBI
OPR did not make final conclusions as to whether there had been misconduct and
the nature of that misconduct. The SES Board made the findings of fact using
OPR’s factual record, including making disciplinary recommendations. It appears
to us that the SES Board was unduly lenient and uncritical in its analysis of the
facts available to it, and that the Board recommended very mild disciplinary action
for the misconduct involved. In the face of what was perceived as a flagrant abuse
of FBI travel vouchers, the punishment was only a letter of censure for a few of the
FBI managers involved. We believe, based on our review of the facts and the FBI
precedent, that this result was too lenient.




                                        31
                               CHAPTER FIVE
                                 RUBY RIDGE
CHAPTER FIVE: RUBY RIDGE
      “Ruby Ridge” is a shorthand phrase for events that occurred in 1992 in Ruby
Ridge, Idaho, after an attempt by U.S. Marshals to arrest Randall Weaver on a
fugitive warrant. Deputy United States Marshals became involved in a shootout
with Weaver, members of his family, and a family friend. A Deputy Marshal and
Weaver’s teenage son were killed during the gunfire. A specialized FBI unit was
then called in to capture Weaver and the others. During the resulting standoff, an
FBI sharpshooter shot and killed Weaver’s wife. Weaver and his family ultimately
surrendered. In a federal trial of Weaver, he was acquitted of murder and other
serious federal charges.
      The conduct of the Deputy Marshals and the FBI in the Ruby Ridge matter
also came under close scrutiny, and several internal FBI and DOJ investigations
ensued. These internal investigations also came under scrutiny, including
questions whether there was an effort in the FBI internal investigations to cover up
the original misdeeds.
      In January 2001, nearly nine years after the original Ruby Ridge events, the
final disciplinary decisions pertaining to the allegations were made by Assistant
Attorney General Stephen Colgate, then the head of the DOJ’s Justice
Management Division (JMD). Colgate decided, against the recommendations of
DOJ OPR and the JMD Assistant Director for Human Resources who was asked to
review the matter, that the evidence did not support additional discipline against
anyone.
      The disciplinary decision in the Ruby Ridge incident has been cited as an
example of a double standard in the FBI. We believe that substantial problems
marred the original investigation of the Ruby Ridge incident and the disciplinary
process that took almost nine years to come to an end. Allegations arose that the
FBI investigators who looked into what happened at Ruby Ridge intentionally or
negligently conducted poor investigations resulting in a cover-up of misconduct by
FBI officials. Although the motivation of the FBI investigators has never been
clearly resolved, the evidence brought forth by later investigations showed that the
original investigations conducted by the FBI were significantly flawed, perhaps to
protect senior officials. These flawed investigations affected the disciplinary
decisions.



                                         32
       Following years of subsequent investigations and retirements, only a few
officials who were under investigation for the cover-up portion of the case were
left to have their cases adjudicated. These final disciplinary decisions were
assigned to and decided by JMD, and therefore the final decisions, to the extent
that there is disagreement with them, cannot be blamed on the FBI’s protection of
senior officials. Although we disagree with the ultimate JMD decision, we do not
believe that the JMD officials involved were part of a systemic effort to protect
senior FBI officials. Rather, we believe that JMD used an incorrect standard in
evaluating the evidence. We also believe that the disciplinary actions in Ruby
Ridge contributed to the continued perception of a double standard of discipline in
the FBI.
      Although the original Ruby Ridge incident has been well documented and
discussed, the tortured aftermath has not been disclosed previously in one report.
We believe that a recitation of the internal investigations and disciplinary process
can shed light on what has, up to now, been a process shrouded in secrecy.
Accordingly, we explain in some detail the events from Ruby Ridge to the final
disciplinary decisions.

                   Chronology of Events in the Ruby Ridge Investigations
1986                   ATF begins to investigate Randall Weaver
June 1990              Weaver indicted, fails to appear in court, arrest warrant issued
August 1992            Standoff begins; FBI activates Strategic Information and Operations Center
                       and Hostage Rescue Team; Rules of Engagement drafted; FBI sharpshooter
                       Horiuchi wounds Weaver and Harris, kills Vicki Weaver
September 30, 1992     FBI Shooting Incident Review Team finds shooting justified
November 2, 1992       FBI holds routine after-action conference; Kahoe later destroys report
November 9, 1992       FBI Shooting Incident Review Group finds no FBI misconduct
April 1993             Weaver and Harris acquitted of murder charges. Weaver convicted of
                       failure to appear and committing an offense on release; Coulson promoted
July 1993              Deputy Attorney General forms special inquiry team headed by Barbara
                       Berman; FBI forms team for investigative support to Berman team
September 1993         Inspectors Robert E. Walsh and Van Harp appointed to lead FBI team
                       assisting Berman
November 1993          Coulson and Kahoe receive cash awards
January 16, 1994       FBI team issues Walsh Report; finds no FBI misconduct



                                                33
June 10, 1994       Berman inquiry report; concludes rules of engagement were defective and
                    Horiuchi first shot justified, second shot not justified
June 1994           FBI forms Mathews team to review Walsh and Berman reports
June 30, 1994       DOJ OPR issues separate opinion finding both Horiuchi shots were justified
Summer 1994         DOJ Civil Rights Division declines to prosecute Horiuchi for lack of
                    evidence; concludes rules of engagement were unconstitutional
September 1994      Coulson promoted
December 6, 1994    Freeh promotes Potts to Acting Deputy Director
December 16, 1994   Mathews team recommends discipline for Glenn, Rogers, and Kahoe, but
                    not Potts or Coulson
December 29, 1994   FBI Assistant Director Coyle sends letter to Freeh recommending
                    disciplinary action for Coulson and Potts
December 29, 1994   Freeh recommends to DAG Gorelick that Potts be issued a letter of censure
January 6, 1995     Freeh announces proposed discipline of FBI employees
March 7, 1995       Freeh urges Gorelick to censure Potts instead of suspending him
April 5, 1995       Gorelick decides to censure Potts
May 2, 1995         Potts promoted to Deputy Director of FBI
May 3, 1995         Glenn sends letter to DOJ OPR alleging cover up by Mathews team
May 1995            DOJ OPR begins investigation into alleged FBI cover up
July 1995           DOJ OPR refers Ruby Ridge matter for criminal investigation; reports
                    preliminary findings to the DAG; Mathews promoted
August 1995         Criminal investigation begins, headed by Michael R. Stiles, the U.S.
                    Attorney for the Eastern District of Pennsylvania
August 11, 1995     Freeh places Potts and Coulson on administrative leave
December 1995       Harp promoted to SAC, Cleveland
October 1996        Kahoe pleads guilty to obstruction of justice and is sentenced to serve 18
                    months in prison; Walsh receives bonus
December 1996       Walsh promoted to SAC, San Francisco; Kahoe retires
June 1997           Mathews promoted to SAC, New Orleans
August 12, 1997     Stiles criminal investigation concludes with no further criminal charges,
                    refers matter back to DOJ OPR for further administrative investigation
August 1997         DOJ OPR starts administrative investigation; Coulson retires



                                             34
November 1997       Harp receives cash award
March 1998          Walsh retires
October 1998        Harp receives cash award
January 1999        DOJ OPR provides copies of its draft report to FBI OPR
April 8, 1999       FBI OPR responds to DOJ OPR's report
June 30, 1999       DOJ OPR issues final report; concludes Potts, Coulson, Walsh, Harp, and
                    Mathews committed misconduct; report sent to AAG Colgate for
                    disciplinary decisions; Colgate assigns JMD Assistant Director Jarcho to
                    review matter
December 1999       Jarcho completes review; concludes Freeh, Potts, Coulson, Harp, and
                    Mathews should be disciplined; recommends rescission of discipline for
                    certain FBI employees, including Glenn and Rogers
                    Colgate asks JMD Deputy AAGs Vail and Sposato to review Jarcho's report
April 17, 2000      Vail and Sposato complete their review; conclude no misconduct or
                    evidence of bad intent
October 5, 2000     DOJ OPR responds to Vail and Sposato; objects to no misconduct
                    conclusions
November 29, 2000   FBI OPR responds
January 3, 2001     Colgate issues decision, concludes no further disciplinary action should be
                    imposed and no prior disciplinary decisions should be changed or rescinded




I.   Background
       The underlying events that comprise the Ruby Ridge incident are well
known, so we will only briefly summarize them below. Beginning in 1986,
Randall Weaver was the subject of an investigation by the Bureau of Alcohol,
Tobacco and Firearms. Weaver lived on a mountain in Ruby Ridge, Idaho, and
was believed to be associated with a white supremacist group and to traffic in
illegal firearms. In June 1990, Weaver was indicted by a federal grand jury on
weapons offenses. Weaver was arrested and released pending trial. Due in part to
a clerical error notifying him of the trial date, he did not appear for trial and an
arrest warrant was issued for him. According to law enforcement sources, Weaver
retreated to his cabin and threatened to shoot any law enforcement officers who
tried to arrest him.


                                            35
     In August 1992, Weaver’s family discovered three Deputy U.S. Marshals
who were surveilling Weaver to prepare for his arrest. Kevin Harris, a Weaver
family friend, shot and killed Deputy Marshal William Degan, and Weaver’s
teenage son Samuel was killed during the gunfire.
      The FBI was called into the matter. The FBI activated its Strategic
Information and Operations Center (SIOC), an FBI Headquarters post used for the
management of crises. It also activated its Hostage Rescue Team (HRT), a tactical
unit of agents trained in handling high-risk situations. The FBI Assistant Director
for Criminal Investigative Division, Larry Potts, and his deputy, Danny Coulson,
discussed the need for an operations plan containing rules of engagement that
would provide guidance for the HRT’s actions. Rules of engagement were drafted
which provided that if any adult male was observed with a weapon, deadly force
“can and should be employed” if the shot could be taken without endangering any
children.
      On August 26, 1992, the HRT was deployed to the site and surrounded
Weaver’s cabin. When an HRT helicopter took off and flew near the cabin,
Weaver, his sixteen-year-old daughter Sarah, and Kevin Harris came out of the
cabin, all armed with rifles. HRT sharpshooter Lon Horiuchi fired one shot,
wounding Weaver. Weaver, his daughter, and Harris began running back to the
cabin, and Horiuchi fired a second shot that penetrated the open door of the cabin.
The shot killed Weaver’s wife, Vicki Weaver, who was behind the door, and
seriously wounded Harris.
       The standoff ended on August 31, when the remaining occupants voluntarily
left the cabin. Weaver and Harris were charged with various federal offenses,
including murder. They were both acquitted of the most serious charges following
a trial. Weaver was convicted of failure to appear for trial and committing an
offense while on release.

II. Initial Internal Inquiries
     The FBI and the Department of Justice conducted several internal inquiries to
determine what had occurred at Ruby Ridge and whether there had been any
improper actions taken by law enforcement personnel.
     The first review of the Ruby Ridge incident was conducted by an FBI
Shooting Incident Review Team (SIRT). FBI procedures call for an administrative
review of all shooting incidents. The SIRT review of the Ruby Ridge shootings,
which began even before the standoff at Ruby Ridge had ended, was headed by an


                                         36
FBI Inspector and included seven other FBI employees. This team was responsible
for reviewing the propriety of the use of deadly force by Horiuchi and the
adequacy of the command, control, and operational planning of the entire Ruby
Ridge operation.
      The report issued by the SIRT team on September 30, 1992, concluded that
Horiuchi had been justified in taking both shots and that the FBI had responded
appropriately at Ruby Ridge. It noted that the rules of engagement that were in
effect at the time of the shooting had been approved by SAC Eugene Glenn, who
was the on-scene commander, HRT SAC Richard Rogers, “and FBIHQ personnel,
to include Assistant Director Larry A. Potts. . . .”
      After the SIRT report was issued, the Shooting Incident Review Group,
headed by Michael Kahoe, the Section Chief of the FBI’s Violent Crimes and
Major Offenders Section, reviewed the report and the FBI’s use of force at Ruby
Ridge. According to FBI procedures, a Shooting Incident Review Group reviews
the report and conclusions of the SIRT team. Kahoe’s Review Group issued its
own conclusions in a memorandum dated November 9, 1992. Kahoe’s Review
Group concluded that no FBI personnel had engaged in misconduct. It also
concluded that the rules of engagement used at the scene had been approved by
FBI Headquarters personnel.
       In addition, on November 2, 1992, the FBI held a routine after-action
conference, which the FBI typically uses to critique an emergency response and to
determine how the FBI can improve its response in the future. A report prepared
by FBI employees under Kahoe’s direction summarized the conclusions of the
conference. A subsequent criminal investigation, which we describe below, found
that Kahoe failed to disclose the conference report during discovery in the trial of
Weaver and Harris, and in fact had destroyed his copy of the report and ordered his
subordinate to destroy his copies. As we describe below, for these actions, Kahoe
later pled guilty to obstruction of justice and was sentenced to eighteen months in
prison.

III. Department’s “Berman” Inquiry and FBI’s “Walsh” Inquiry
      In July 1993, DOJ OPR initiated an investigation into the allegations of
misconduct by the government in the Ruby Ridge matter. The allegations were
raised by several sources, including defense counsel for Weaver and Harris, the
U.S. Attorney’s office in Idaho (which had prosecuted the cases against Weaver
and Harris), and FBI personnel. Shortly thereafter, Deputy Attorney General
Philip Heymann assigned the allegations to a DOJ task force for review. Four

                                        37
attorneys from the Department’s Criminal Division were assigned to work with
OPR Assistant Counsel Barbara Berman to investigate the allegations. This review
became known as the “Berman Inquiry.” The FBI was asked to provide
investigative support for the inquiry. The FBI assigned an investigative team, led
by two FBI inspectors, to assist the DOJ task force. These two inspectors were
replaced by FBI Inspectors Robert Walsh and Van Harp in September 1993.19
      After a contentious decision was made by Deputy Attorney General
Heymann to exclude FBI agents from some of the interviews, the FBI withdrew
from the investigation and produced its own report, dated January 16, 1994, which
came to be known as the Walsh Report. This report was issued several months
prior to the Berman Inquiry’s final report. DOJ OPR later found that it was
“understood that Berman was in charge of the inquiry and would be issuing a
formal report on behalf of the DOJ task force.” A later JMD review also
concluded that the FBI investigators had been instructed to assist the DOJ task
force and not to reach their own conclusions regarding the Ruby Ridge incident.
Yet, the Walsh report included conclusions and legal analysis, including the
propriety of the rules of engagement and the shots fired by Horiuchi. The Walsh
Report concluded that the rules of engagement as written could have been
misunderstood, but it found that they were not misunderstood by Horiuchi and
added that Horiuchi’s use of deadly force at Ruby Ridge was “reasonable under
constitutional standards.”
       Berman and her team produced a different report, dated June 10, 1994. The
Berman report found serious failings by the FBI and the U.S. Attorney’s office in
their handling of the Ruby Ridge matter and subsequent events. The Berman
report concluded that the rules of engagement were defective because of the
inclusion of the word “should” in the phrase deadly force “can and should be
employed,” which deviated from the standard deadly force policy that requires
agents to assess the level of danger before using deadly force and to give warnings
if feasible. The report was unable to reach a conclusion as to whether FBI
Headquarters had approved the “can and should” language, but stated that it was
“inconceivable” that FBI Headquarters remained ignorant of the rules of
engagement throughout the entire incident. The report concluded that Horiuchi’s


    19
       According to a later report issued by DOJ OPR, it was widely known that Walsh was a
close friend of Potts, who was a subject of the investigation for his alleged approval of the rules
of engagement.



                                                38
first shot was justified, but that his second shot was not because the immediacy of
the threat had dissipated when the subjects retreated into the cabin.
       DOJ OPR Counsel Michael Shaheen transmitted the Berman report to
Deputy Attorney General Jamie Gorelick on June 30, 1994, together with DOJ
OPR’s separate views on the issue of Horiuchi’s second shot. In a report signed by
Shaheen, DOJ OPR disagreed with the Berman report’s conclusion that the second
shot was not justified. DOJ OPR argued that the second shot was justified in view
of the totality of the circumstances. Based on its review of the reports, in the
summer of 1994 the DOJ Civil Rights Division concluded that while the rules of
engagement were probably unconstitutional, the evidence was insufficient to
justify a prosecution of Horiuchi.

IV. The FBI’s “Mathews” Review
      After the issuance of the Walsh and Berman reports, the FBI conducted an
administrative review of the Berman findings to determine what, if any,
disciplinary action should be taken against FBI personnel. The FBI’s General
Counsel asked Thomas Coyle, Assistant Director for the Personnel Division, to
assemble a team to determine what administrative action should be taken by the
FBI. Coyle picked Charles Mathews, who was the Associate SAC (ASAC) in San
Francisco, to conduct the review. Mathews had worked as an ASAC under
Coulson for two and a half years, from 1988 to 1990, when Coulson was the SAC
in Portland, Oregon.
      On December 6, 1994, ten days prior to the issuance of the Mathews report,
Freeh elevated Potts to the position of FBI Acting Deputy Director. The Mathews
team issued its report on December 16, 1994. It recommended discipline for
several agents related to mishandling of the crime scene or laboratory issues. It
also recommended a censure for on-scene commander Glenn for “approval of
flawed rules of engagement that could reasonably be interpreted to direct FBI
employees to act contrary to policy and law”; a censure for HRT SAC Richard
Rogers for “creating and documenting flawed [rules of engagement] that could
reasonably be interpreted to direct FBI employees to act contrary to policy and
law”; a censure for Michael Kahoe for “failures in supervising the SIRG [Shooting
Incident Review Group’s] review” of the incident; and a censure for the ASAC
who prepared the Shooting Incident Review Team’s report on the incident for
failures in preparing the team’s report. The Mathews report did not contain any
recommendations for discipline against Potts or Coulson. The Mathew’s report
suggested that it was not recommending discipline for Potts or Coulson in part


                                         39
because of the Mathews team’s conclusion that rules of engagement are generally
approved at the level of the on-scene commander and not at FBI Headquarters.
The report stated that because there was no requirement for the rules of
engagement to be approved at the Headquarters level, there was no need to pursue
whether the rules of engagement had actually been approved at the Headquarters
level.

V. FBI Disciplinary Decisions
      Following the Mathews report, on December 29, 1994, Coyle sent a
memorandum to FBI Director Freeh containing amended recommendations for
disciplinary action. Coyle suggested amending the Mathews recommendations so
that Coulson and Potts would receive a censure for “failing to review the finalized
[rules of engagement] after involving [themselves] in discussions leading to the
promulgation of the [rules of engagement]”; that Glenn and Kahoe be referred to
the SES Board for consideration of appropriate action rather than “merely
censure”; and that Rogers be censured and suspended rather than “merely
censure.”
       On December 29, 1994, Director Freeh sent a letter to Deputy Attorney
General Gorelick recommending that Potts be issued a letter of censure.20 The
letter stated that Freeh had found that Potts had discussed and approved the rules of
engagement with ASAC Rogers prior to Rogers’ arrival at Ruby Ridge. But
Freeh’s letter stated that he found the rules of engagement as subsequently drafted,
approved, and disseminated on site, and which had been found to be improper, had
not been approved by Potts. Freeh concluded that although Potts’ approval of the
rules of engagement was not required by FBI policy at that time, Potts was remiss
in failing to review the finalized rules after involving himself in discussions
leading to their promulgation.
      On January 6, 1995, Director Freeh held a press conference and announced
the proposed discipline of the FBI employees, as listed in the December 1994
Coyle memorandum.
     On March 7, 1995, Freeh wrote a memorandum to Deputy Attorney General
Gorelick urging her to approve his recommendation of a censure for Potts for


    20
       As noted above, by regulation all final decisions on discipline for FBI executives at the
level of Assistant Director or above must be approved by the Deputy Attorney General.



                                                40
“failing to follow through on his discussion concerning the rules of engagement to
be recommended to the on-scene commander.” Freeh stated in the memorandum
that Gorelick had advised him that she was “preliminarily inclined to recommend
the discipline be increased to a thirty-day suspension.” Freeh wrote that he
strongly disagreed on the grounds that Potts’ actions were deficient only to the
extent that he did not follow through on earlier discussions about the rules of
engagement and that a thirty-day suspension would be disproportionate to Potts’
conduct. Freeh argued that the suspension would send “a wrong message to both
the public and the employees of the FBI,” would signal that there was culpability
among FBI employees for the accidental shooting of Vicki Weaver, and would
harm the credibility of Potts and other FBI employees involved in the creation and
implementation of the rules of engagement. Freeh also stated that the increased
discipline was “so divergent from my recommendation that it is likely to do
profound damage to the relationship between the Department and the FBI.” Freeh
expressed concern about the impact that the suspension would have personally on
Potts and about the impact it would have on Freeh’s credibility as Director. Freeh
urged Gorelick to censure Potts, but recommended that if she was still persuaded to
the contrary, that she consider reducing Potts in grade for six months and place him
on probation for one year.
      On April 5, 1995, Gorelick approved Freeh’s recommendation that Potts be
issued a letter of censure for his role in Ruby Ridge, and the letter of censure was
issued. On May 2, 1995, the Attorney General approved Director Freeh’s
recommendation that Potts be named as Deputy Director of the FBI.

VI. Investigation of Alleged Cover Up
      On May 3, 1995, while the FBI’s final disciplinary actions against him were
pending, Glenn sent a letter to DOJ OPR alleging that the disciplinary review
conducted by Mathews had been faulty and requesting that DOJ OPR conduct its
own investigation. Glenn alleged that the deficiencies in Mathews’ investigation
“reveal a purpose to create scapegoats and false impressions, rather than
uncovering or reinforcing the reality of what happened at Ruby Ridge.” Glenn
stated that the DOJ and FBI investigations (referring to the Berman and Walsh
Reports) had determined that the rules of engagement had been approved at the
level of Headquarters, but that the Mathews report blamed Glenn alone for
approving them. He also alleged that the Mathews investigation was incomplete
and resulted in discipline for agents without faulting those who had supervised
them. Glenn also alleged that Mathews had a close relationship with Coulson and


                                         41
that this association caused Mathews “to avoid the development of the necessary
facts, and caused him to cover up facts germane to the central issues.”
      Glenn’s allegations led to several subsequent investigations. In the spring of
1995, DOJ OPR began an investigation into allegations that some of the FBI
agents involved in the earlier inquiries had intentionally withheld or covered up
information in order to protect the FBI, Potts, and Coulson from criticism. As a
result of the new investigation, DOJ OPR concluded that Kahoe had lied under
oath to the Berman team about the destruction of the after-action report, that Potts
and Coulson had been closely involved in the drafting of the rules of engagement,
that Potts had approved the rules of engagement, and that the decision to destroy
the after-action report had been made “above Kahoe.”
      In July 1995, DOJ OPR reported its preliminary conclusions to Deputy
Attorney General Gorelick, and the matter was referred for criminal investigation.
As a result, on August 11, 1995, Director Freeh placed Potts, Coulson, and two
other officials on administrative leave with pay.
      The criminal investigation was supervised by Michael Stiles, the U.S.
Attorney for the Eastern District of Pennsylvania. That two-year investigation
resulted in the conviction of Kahoe for obstruction of justice in connection with his
destruction of the after-action report. Stiles recommended no further prosecutions,
but he referred several matters back to DOJ OPR for investigation of
administrative misconduct. In a letter dated August 12, 1997, Stiles referred to
DOJ OPR several issues that he believed required further administrative review.21
      DOJ OPR investigated these matters, together with the broader questions of
(1) how did the rules of engagement that were in effect at Ruby Ridge come to be
formulated and approved, and (2) to what extent did misconduct by FBI personnel
contribute to the failure of the internal inquiries to uncover the full story of FBI
actions in connection with Ruby Ridge. With respect to this second issue, DOJ
OPR investigated several key points, including:

    21
       Among the issues he suggested should be investigated further were a communication by
Harp to subordinates concerning changes to FD-302 reports during the Berman investigation; an
alleged improper statement by a special agent during an interview with DOJ OPR investigators;
an alleged improper comment by an FBI deputy general counsel to a criminal investigator; an
alleged written instruction to an HRT sharpshooter not to provide information that conflicted
with Horiuchi’s version of events; and other alleged improper actions by FBI employees during
the investigations of Ruby Ridge.



                                             42
         • Walsh’s and Harp’s failure to interview key witnesses who had been in
           the SIOC during the Ruby Ridge incident and their failure to uncover
           the truth about the after-action report;
         • Walsh’s and Harp’s editing of other agents’ FD-302s;
         • Walsh’s failure to recuse himself in light of his close friendship with
           Potts, a subject of the investigation;
         • Walsh’s and Harp’s drafting performance evaluations for team
           members that appeared to reward agents for “correctly” concluding
           that FBI officials had acted properly;
         • Mathews’ failure to interview key witnesses in the SIOC;
         • Mathews’ use of an unsupported conclusion that FBI Headquarters
           officials were not required to approve rules of engagement as
           justification for his team not investigating to determine whether
           Headquarters officials had in fact approved the rules of engagement;
           and
         • Mathews’ failure to recuse himself given his friendship with Coulson,
           a subject of the investigation.
      In analyzing the conduct of FBI employees, DOJ OPR considered whether a
given act or failure to act constituted misconduct, demonstrated poor judgment, or
did not present any problems. DOJ OPR found misconduct in instances where it
determined that the subject had intentionally violated his duty or had acted in
reckless disregard of a generally accepted duty. It found poor judgment in
instances where it determined that the conduct amounted to a less serious failure to
carry out responsibilities properly.

    A. DOJ OPR Draft Report and FBI OPR Comments
      In January 1999, DOJ OPR provided copies of its draft report describing the
results of its investigation to FBI OPR for review and comment. This was done
pursuant to an agreement that FBI OPR would provide DOJ decision-makers with
information on what policy provisions it thought should be applied to the
disciplinary decision and what discipline it thought would have been taken if the
Rudy Ridge decisions were handled within the FBI. In a memorandum dated April
8, 1999, FBI OPR Assistant Director DeFeo responded to the draft report.
DeFeo’s memorandum included information about what policy provisions would
apply and what disciplinary action the FBI believed would be taken if the Ruby

                                         43
Ridge inquiry were being handled within the FBI. The memorandum addressed
only those employees about whom adverse findings had been made and those who
still worked for the FBI.
      The FBI OPR memorandum discussed the proposed discipline of Harp at
length. It agreed with DOJ OPR’s conclusion that Harp used poor judgment in
writing the agent evaluations, which made it appear that agents were being
rewarded for “correctly” deciding that the HRT had acted properly. However, the
FBI OPR memorandum stated that poor judgment would not provide a basis for
discipline of an FBI SES member unless it rose to the level of misconduct,
malfeasance, or neglect of duty. FBI OPR concluded that it would not recommend
to the Deputy Director that poor judgment of that nature be referred to an SES
Disciplinary Review Board. On the issue of whether FD-302s had been
improperly edited, FBI OPR did not agree that Harp’s actions constituted
misconduct or neglect of duty and stated that it would not recommend that the
incident be referred to an SES Board. The memorandum asserted that “all Harp
did was question the interviewer if certain language was accurate, and neither
pressured nor instructed the interviewer to make any changes. . . .” The
memorandum disagreed with DOJ OPR’s statement that it was a serious dereliction
of duty for a supervisor who did not participate in an interview to direct or request
changes in the substance of an FD-302. FBI OPR asserted that DOJ OPR had not
defined “what is substance and what is style,” and that the final version of the
FD-302 was accurate.
      The OPR memorandum also considered the allegation against Harp that he
failed to conduct a complete investigation. It concluded that, in the absence of any
direct evidence of wrongful intent, OPR would not recommend that Harp’s failure
to ensure interviews of every person on the after-action conference list or to
ascertain that Kahoe had lied be referred to an SES Disciplinary Review Board as
misconduct or neglect of duty. OPR concluded that the facts did not establish that
Harp was responsible for either FBI management or Berman being deceived or
ignorant as to the completeness of the Walsh inquiry. OPR stated that it would not
consider the FBI’s decision to withdraw from the Berman Inquiry, which was
approved at much higher levels than Harp, or the lack of a disclaimer that the
Walsh report was incomplete, to be misconduct attributable to Harp. The
memorandum also rejected DOJ OPR’s conclusion that Harp had tried to
counterbalance the perceived bias of Berman, and “thereby to protect some of the
subjects of the investigation.”



                                         44
      With respect to Mathews, FBI OPR agreed with DOJ OPR that Mathews
used “extremely poor judgment in failing to recuse himself from the inquiry.” FBI
OPR stated that it would have recommended that Mathews’ creation of the
foreseeable appearance of impropriety in a case as significant as Ruby Ridge be
referred to an SES Disciplinary Board for a review of whether misconduct or
neglect of duty were present and for disciplinary consideration. FBI OPR
disagreed with DOJ OPR’s assertion that Mathews relied on unsupported
statements about who bore the responsibility for the approval of the rules of
engagement. But FBI OPR concluded that Mathews should have been aware of
the investigative holes in prior Ruby Ridge investigations and that it would have
referred what is “arguably a marked departure from professional standards of
thoroughness and impartiality to the SES Board for disciplinary consideration,
particularly given the recusal issue.”

    B.   Memorandum to DOJ OPR from FBI OPR Investigators
       The disciplinary issues became even more complicated when investigators
within FBI OPR made clear that they did not agree with the official FBI OPR
position as reflected in Assistant Director DeFeo’s April 8, 1999, memorandum to
DOJ OPR. Three FBI OPR investigators who had worked on the DOJ OPR
investigation – FBI OPR Unit Chief John Roberts, FBI OPR Unit Chief Frank
Perry, and Supervisory Senior Resident Agent John Werner – sent a memorandum
to DOJ OPR commenting on the draft DOJ OPR report. The memorandum stated
that the authors had been advised by Assistant Director DeFeo that their
observations and recommendations did not represent the official opinion of FBI
OPR, so they wanted to provide their comments to DOJ OPR directly.
      In their memorandum, the FBI investigators were more critical of many of
the FBI officials than FBI OPR’s memorandum was. The most significant
difference was the investigators’ criticism of FBI Director Freeh. The investigators
stated that they believed that Freeh should receive “direct criticism for his role in
the Ruby Ridge adjudication.” The memorandum stated that Freeh’s actions in
creating a deadline for the Mathews report and his elevation of Potts during the
investigation of him “at least lend the appearance of implied influence on as of
then an unfinished investigation and adjudication of the Ruby Ridge matter.” It
stated that Freeh also deserved criticism for his elevation of Potts given the
information that had been provided to him about Potts’ exposure in the Ruby Ridge
matter. The memorandum also stated that the investigators believed Freeh
inadequately reviewed the Mathews report, or he would have realized that it was a
significantly flawed investigation. It stated that “at a minimum, we have an

                                         45
appearance of an attempt on the part of Walsh, Harp, Mathews, Coyle and Director
Freeh not to disclose the FBI’s improper conduct during and following the Ruby
Ridge crisis, or inattention to detail on the part of these individuals in conducting a
thorough and objective investigation and adjudication.” The memorandum also
criticized Freeh for failing to remove Walsh from the investigation despite
knowledge of Walsh’s relationship with Potts, for promoting Harp and Mathews
while the investigation was pending, and for authorizing cash bonuses to several
subjects of the investigation while the investigation was pending.

     C. DOJ OPR Final Report
       On June 30, 1999, after considering the comments of FBI OPR and the FBI
investigators, DOJ OPR issued a 571-page final report describing the findings of
its review. In an undated memo to FBI OPR, DOJ OPR stated that it disagreed
with FBI OPR’s comments and would not change its conclusions.22
      On the issue of approval of the rules of engagement, the DOJ OPR final
report found by a preponderance of the evidence that Coulson approved the “can
and should” language in the rules. It did not find, however, that there was
sufficient evidence to show that Potts had approved the language. But the report
concluded that both Potts and Coulson committed misconduct by knowingly
approving rules of engagement that improperly deviated from the FBI’s standard
deadly force policy, regardless of whether they had approved the actual “can and
should” language. It also concluded that Potts and Coulson later committed
misconduct by making false statements about their approval of the rules of
engagement.
       DOJ OPR also discussed the adequacy of the Walsh investigation and
determined that both Walsh and Harp committed misconduct by failing to ensure
that their inquiry was complete. DOJ OPR concluded that this failure was
motivated in part by a desire to counterbalance what they perceived as the bias of
Berman’s review. DOJ OPR also found that it was unwise to have Walsh conduct
the investigation given his friendship with Potts, but it found no evidence of overt
favoritism during the inquiry or evidence that Walsh was selected in order to
protect Potts. Walsh and Harp were also found to have committed misconduct in

    22
       DOJ OPR’s one substantive change based on FBI OPR’s comments was that DOJ OPR
increased its finding of poor judgment to one of misconduct based on Mathews’ failure to recuse
himself.



                                              46
failing to supervise properly the production of interview reports in order to ensure
their integrity. In addition, DOJ OPR concluded that Walsh and Harp used poor
judgment in drafting performance appraisals for agents who worked on the inquiry
when they stated that the agents had “correctly determined that the HRT acted
effectively and that the [rules of engagement] were formulated and modified within
parameters of FBI policy.”
      The DOJ OPR report found that the Walsh team did not take sufficiently
aggressive steps to investigate various areas and that the lack of diligence was
evidence that the Walsh team avoided uncovering the full truth about Ruby Ridge.
The report stated that Walsh and Harp reached conclusions in their report despite
orders from DOJ not to, and that this was further evidence showing that the inquiry
was slanted to protect Potts and Coulson. DOJ OPR recommended discipline for
Harp ranging from censure to suspension for 30 days. DOJ OPR did not
recommend any range of discipline for Walsh because he had already left the FBI.
      The DOJ OPR report examined the adequacy of the administrative review by
Mathews. It concluded that Mathews committed misconduct by failing to recuse
himself in light of his relationship with Coulson, and that Mathews’ supervisor,
Thomas Coyle, used poor judgment in permitting him to work on the inquiry. It
also concluded that Mathews committed misconduct in conducting an inquiry that
was incomplete or inadequate by failing to interview key witnesses who had been
in the SIOC and by using unsupported conclusions that FBI Headquarters did not
need to approve rules of engagement as justification for not investigating
Headquarters personnel’s actions. DOJ OPR recommended suspension of
Mathews for 15 to 60 days.
       The DOJ OPR report discussed the adjudication of discipline following the
issuance of the Mathews report. It concluded that, while those on the SES
Disciplinary Board acted in good faith in making the disciplinary decisions, they
relied on the unsupported conclusion that on-scene commanders were responsible
for approving the rules of engagement. Based on DOJ OPR’s finding that the rules
of engagement were approved at the FBI Headquarters level, DOJ OPR concluded
that the FBI should consider whether Glenn should have his record cleared or
modified with respect to discipline.
       The DOJ OPR report criticized numerous other agents and FBI officials for
their roles in the investigations of the original Ruby Ridge incident. DOJ OPR also
criticized Director Freeh by stating that he used poor judgment in promoting Potts
to Deputy Director while investigations of Potts were ongoing. DOJ OPR
concluded that this promotion, together with his earlier promotion to Acting

                                        47
Deputy Director, could be viewed as a signal to the FBI investigators that Potts
should not be criticized for his conduct in Ruby Ridge. However, FBI OPR did not
make any recommendation for discipline of Freeh.

    D. DOJ OPR Report Forwarded to the Justice Management Division
      On June 30, 1999, the Department of Justice referred the final DOJ OPR
report to Assistant Attorney General (AAG) for Administration Stephen Colgate,
who was the head of the Department’s Justice Management Division (JMD), for
him to make the disciplinary decisions. Director Freeh had recused himself from
the decisions and the Department believed that the decision on disciplinary matters
should be handled outside the FBI. Colgate was assigned because many of the
other high-level Department officials had worked closely with Potts and also were
recused.
       In a July 23, 1999, memorandum from Assistant Director DeFeo to Colgate
and DOJ OPR, DeFeo urged that an “in-depth pre-decisional reexamination of
several issues be made by a deciding authority detached from the DOJ
investigation.” He stated that the “intensity of feeling reflected in DOJ OPR’s
final report’s findings compel[led]” him to make this recommendation. The first
such issue was DOJ OPR’s finding that the failures to conduct further interviews of
SIOC witnesses and to locate the after-action report gave rise to the inference that
Walsh and Harp were motivated by a desire to skew its results in order to
counterbalance the perceived bias of Berman. DeFeo noted that no such adverse
inference was drawn as to the motives of the DOJ attorneys who were in charge of
the Berman inquiry, who consulted with the FBI about who to interview, and who
had the ability to participate in interviews and to conduct separate interviews.
DeFeo argued that if the attorneys were entitled to a presumption of regularity in
the performance of their duties, no inference of bad faith was warranted as to the
agents whose work was supervised by those attorneys.
      DeFeo also argued that punishment of Harp for terminating an incomplete
investigation appeared to be “punishment for an institutional FBI decision,
proposed against Harp because he is the only remaining on-board manager who
was involved in that aspect of the inquiry.” DeFeo contended that the evidence
demonstrated that the withdrawal from the investigation was decided well above
Harp’s level. DeFeo also argued that the penalty proposed against Mathews was
unduly severe and not in keeping with FBI precedent. He stated that the absence
of evidence of intentional misconduct “would militate against a suspension as



                                        48
severe as that recommended,” and that Mathews’ actions were more akin to neglect
of duty than to intentional misconduct.

VII.     The Justice Management Division Review
      Colgate assigned JMD Assistant Director Vivian Jarcho to completely review
DOJ OPR’s and FBI OPR’s analyses and provide recommendations as to the
appropriate discipline. Jarcho was the Assistant Director for Workforce Relations
Group at that time and had handled personnel matters for the Department for
almost 15 years.23 Prior to handling the Ruby Ridge matter, she had reviewed and
made disciplinary recommendations in two other sensitive Department matters –
an OIG investigation into the Miami Immigration and Naturalization Service’s
alleged deception of Congress when a congressional delegation came on a fact-
finding visit to the Miami District, and the OIG’s investigation about deficiencies
in the FBI laboratory.

       A. Jarcho’s Analysis
       In June 1999, Jarcho began her review of DOJ OPR’s report, the responses to
it, and the underlying materials. In December 1999, she completed a 216-page
report that described the results of her review, contained her analysis of the
underlying materials, and made recommendations for discipline. Jarcho told the
OIG that even though FBI employees do not have appeal rights to the Merit
System Protection Board (MSPB), she applied MSPB criteria for disciplinary
action in her review “for the sake of equity.” Jarcho’s report stated that she also
considered the criteria applied by DOJ OPR, conducted a “Douglas Factor
analysis” in order to make recommendations regarding reasonable penalties,
evaluated possible mitigating and aggravating factors, and applied FBI disciplinary
precedent for similar deficiencies or misconduct.
      Jarcho’s report concluded that Potts and Coulson were directly involved in
formulating and approving the rules of engagement and impeding official
investigations by making false and misleading statements to investigators. It also
concluded that they blamed more junior FBI members for their actions and let
them be harshly judged and disciplined in their place. It stated that if Potts and


    23
       The Work Force Relations Group was responsible for representing the Department in
appeals to the Merit Systems Protection Board and the Federal Labor Relations Authority, and
for providing advice and guidance throughout the Department on disciplinary matters.



                                              49
Coulson were still employed by the FBI, they could be subject to disciplinary
action.
       Jarcho’s report also agreed with the DOJ OPR finding that Walsh and Harp
committed misconduct by failing to ensure that the Walsh inquiry was complete
with respect to the after-action report and the interview of SIOC personnel, and
that this failure was motivated in part by a desire to counterbalance the perceived
bias of Berman. The report agreed with DOJ OPR that it was unwise to have
Walsh conduct the investigation given his friendship with Potts. It did not agree
entirely, however, with DOJ OPR’s finding that there was no evidence of overt
favoritism during the inquiry or evidence that he was selected in order to protect
Potts. The report stated that Walsh’s independent decision to issue the findings
and conclusions of his team in a separate report was troubling conduct. Jarcho
found that this action was evidence that Walsh was trying to protect Potts and
Coulson and deliberately sought to present findings that he believed would be
more favorable to the FBI than the findings he anticipated would be included in
Berman’s report. The report also stated that it was troubling that Walsh and Harp
were unable to provide a satisfactory explanation for why SIOC personnel were
not interviewed and why Walsh’s teams failed to thoroughly investigate the entire
matter.
       In addition, Jarcho’s report agreed with DOJ OPR that Walsh and Harp
committed misconduct in failing to supervise properly the production of interview
reports in order to ensure their integrity. Jarcho also agreed that Walsh and Harp
used poor judgment in drafting performance appraisals for agents who worked on
the inquiry saying that they had “correctly determined that the HRT acted
effectively and that the rules of engagement were formulated and modified within
parameters of FBI policy.” The report recommended that Harp receive a 15-day
suspension and found that it was an aggravating factor that Harp claimed to
investigators that he did not know that the FBI was not to include conclusions in its
fact-finding, “despite extensive documentation that proves otherwise.”
      On the issue of the adequacy of the Mathews review, the Jarcho report
disagreed with the DOJ OPR finding that Mathews committed misconduct by
failing to recuse himself in light of his relationship with Coulson. Jarcho stated
that Mathews’ history with Coulson was well known at the FBI and that other
agents who raised potential conflicts during their participation on the Walsh and
Mathews inquiry teams were directed to remain members if they believed they
could be objective. Jarcho found that it was likely that Mathews would have stated
that he could have been objective and would have been allowed to conduct the


                                         50
inquiry regardless. Jarcho’s report stated that it is well-established FBI practice
not to disqualify agents because they have worked for or have a personal
relationship with the person under investigation. It noted that FBI OPR has
expressed the opinion that any FBI official is expected to be able to investigate
virtually any other FBI official, regardless of professional friendships that develop
between senior employees over the years. However, the report recommended that
the FBI review its policies regarding conflicts of interest and ensure that all FBI
personnel understand the importance of avoiding both actual and apparent
conflicts.
     The Jarcho report found that Mathews committed “egregious” misconduct in
conducting an inquiry that was incomplete or inadequate in failing to interview
SIOC personnel and in using unsupported statements about approval of the rules of
engagement to conclude that the rules were not approved at FBI Headquarters.
The report recommended that Mathews be suspended for 30 days for this
misconduct.
       The Jarcho report questioned whether earlier disciplinary decisions in the
Ruby Ridge matter were equitable, given the failures of the Mathews report.
Jarcho found “procedural deficiencies and flawed analysis in the Mathews report
which resulted in non-supportable disciplinary actions being taken against FBI
employees.” Jarcho’s report reviewed the disciplinary decisions made in 1994
relating to the rules of engagement and concluded that Glenn’s and Rogers’
discipline should be rescinded based both on earlier procedural problems and on
the grounds that discipline had been imposed on the unsupported proposition that
on-scene commanders were responsible for approving rules of engagement. Jarcho
agreed with DOJ OPR that FBI Headquarters was responsible for approving the
rules of engagement and that disciplinary action against Glenn and Rogers was
unwarranted and unreasonably harsh.
      Jarcho, like the three FBI investigators who had commented on the DOJ OPR
report, believed that Freeh’s conduct deserved significant criticism. Jarcho’s
report stated that the Department had devoted considerable funding and staff to
thoroughly review the events surrounding Ruby Ridge, which culminated in the
Berman report. Despite this effort, Director Freeh dismissed the Department’s
findings in favor of the Mathews report, which was conducted in two months, as




                                         51
being more credible and accurate.24 Jarcho’s report stated that the fact that the
Mathews report was less critical of the FBI than the Berman report and made
conclusions that insulated FBI leadership from culpability damaged the FBI’s
credibility. Jarcho stated that the “Director’s support for [the Mathews report] also
ensured that Ruby Ridge would remain a problematic public relations and FBI
employee morale issue.”
      Jarcho’s report concluded that Director Freeh bore significant responsibility
for much of the adverse publicity surrounding Ruby Ridge and for the appearance
of FBI bias. Jarcho concluded that Freeh’s actions undermined the integrity of the
Department-led investigation and led to disciplinary actions being taken against
FBI employees based on faulty analysis and incomplete fact-finding. The Jarcho
report stated:
         Director Freeh’s admitted bias towards Larry Potts caused him to
         strong-arm the Department about approving his recommendation for
         Potts to receive censure rather than a 30 day suspension. These
         actions constitute misconduct and warrant disciplinary action.
         Therefore, we recommend that Director Freeh be censured for his
         actions and admitted demonstrated poor judgment.

     B.     Consideration of Matter by Deputy Assistant Attorney Generals
            Sposato and Vail
      AAG Colgate told the OIG that Deputy Assistant Attorney General John Vail
and Deputy Assistant Attorney General Janis Sposato acted as his counsel on the
Ruby Ridge disciplinary matter and that he asked them to fully review the work of
Jarcho and DOJ OPR. Jarcho gave her report to Vail in December 1999 and
briefed Vail and Sposato several times about her conclusions.
      After their review, Vail and Sposato rejected DOJ OPR’s and Jarcho’s
conclusions and disciplinary recommendations. In a memorandum to Colgate
dated April 17, 2000, Vail and Sposato began by stating that the actual events of
Ruby Ridge were long past. They stated that it also appeared to have been a “tale
of the search for someone to blame for an operation that went so horribly wrong,”


    24
       In a January 1995 press conference, Freeh had announced the results of the Mathews
review and the disciplinary actions he was taking, stating that he supported Mathews’ finding
that the rules of engagement were the responsibility of the on-scene commanders.



                                               52
and that “there has been a desperate need to hold someone to account for an
outcome that no one wanted and which no one finds satisfactory.”
       With respect to Harp, Vail and Sposato stated in the memorandum that they
believed that, “absent some evidence of volition on his part in producing an
‘incomplete’ report, he should not be held to task on this basis.” They stated that
this was especially true in light of the fact that Harp’s superiors had left the FBI
and were never disciplined for their alleged roles in the matter. They stated that to
focus responsibility for the inadequacies of the Walsh report on Harp, six years
after the fact, “does not serve any apparent equitable or institutional purpose.”
They added that Berman could also be said to have issued a report without the
benefit of the same interviews but that no recommendation of discipline had been
made in that case. Finally, they stated that any action against Harp on the basis of
inadequacies of the Walsh report seemed more appropriate for the realm of
performance evaluations than of discipline:
           That is, if there were any shortcomings in the report which
     Harp helped to produce, absent any evidence of improper motive on
     Harp’s part – and we have not been convinced of any – such
     deficiencies as “incompleteness” of work are matters for which an
     employee may be counseled, may suffer in his or her rating, or may
     not be rewarded when bonuses are handed out – but not, typically,
     disciplined. (Emphasis in original.)
      In addition, Vail and Sposato did not view the changes to the FBI 302s as
seriously as Jarcho did. Their memorandum stated that, since there appeared to
have been an acceptance of the editing process generally, they would not
recommend discipline for Harp on that basis. Sposato told the OIG that, while she
believed that editing 302s should be kept to a minimum because the 302s should
remain as faithful as possible to the original interview, she did not believe that
discipline was appropriate when such a practice was not prohibited by the FBI and
where she did not believe there were significant, material alterations.
      Regarding Mathews’ conduct, Vail and Sposato concurred with Jarcho that
Mathews did not commit misconduct when he failed to recuse himself from the
investigation because of his relationship with Coulson. They disagreed, however,
with Jarcho’s (and DOJ OPR’s) conclusion that Mathews should be disciplined for
conducting an inquiry that was incomplete and inadequate. The Vail and Sposato
memorandum stated that, as with Harp, there was no evidence that Mathews
intentionally slanted his report to further a “cover-up” of wrongdoing by senior
FBI officials. They again concluded that, absent evidence of intent or of gross

                                         53
negligence or dereliction, deficiencies in work product are typically dealt with
through the performance management process.
     Vail and Sposato also disagreed with Jarcho’s recommendation of a letter of
censure for Freeh. Their memorandum to Colgate stated:
           Even assuming it would be in your purview to recommend it
     (given that Mr. Freeh is a Presidential appointee), we do not believe
     that censure is appropriate in this case. From our perspective,
     Director Freeh at all times used his own best judgment about
     matters that were hotly debated both within and without the
     Department. His judgments should not be the subject of discipline,
     no matter what others may think of them.
      Vail and Sposato’s memorandum also reviewed the issue of whether the
earlier discipline against Glenn and Rogers was justified. The memorandum
discussed the propriety of whether rules of engagement should ever be developed,
given the Department’s overarching deadly force policy. In the end, Vail and
Sposato concluded that, with respect to discipline, they were “inclined to leave in
place the discipline that has been proposed and/or taken by others, and to
recommend no further disciplinary action based upon the promulgation of the rules
of engagement.”
     Their memorandum stated:
           It is our intention that these recommendations should put the
     Ruby Ridge incident in perspective. While there has been much
     written and said about the “Rules of Engagement,” we believe most
     of that discussion has been misplaced, focusing on the niceties of a
     phrase (i.e. “could” v. “should” v. “can”) rather [than] on the real
     question of the appropriate role for such rules in a crisis. Most of
     the individuals responsible for the Ruby Ridge [rules of
     engagement] have either left the FBI voluntarily or been disciplined.
          This is not an outcome that many will find satisfying; indeed,
     some will be very dissatisfied with it. However, we are willing to
     accept that there are as many views of human events as there are
     viewers, and that it is rarely possible to reconcile them all.
      Their memorandum concluded with three brief recommendations: (1) that the
FBI should clarify the role of the FD-302 and undertake a vigorous training effort
to ensure that all agents prepare them in the same way; (2) that Department


                                         54
leadership needed to be mindful of the unsatisfactory conduct of the
Berman/Walsh investigation25 and to consider whether the FBI can investigate
itself when the conduct of top leadership is a potential subject of the investigation;
and (3) that the Department should undertake a study of the proper role of rules of
engagement in crisis management and then clearly articulate its policy in this area.
      Jarcho told the OIG that she felt that Vail and Sposato respected her work,
but were “viewing things differently at a different time.” She added that Vail and
Sposato were very “immersed” in considering the matter and that they were not
cavalier about any aspect of it. She said that she believes they made considered
decisions in this matter, but that they did not review the voluminous materials as
thoroughly as she had. Jarcho told the OIG that she did not agree with Vail and
Sposato’s analysis, and Jarcho remains convinced that her recommendations were
appropriate.
      Vail and Sposato both told the OIG that they had concerns about Jarcho’s
conclusions. Sposato stated that she thought Jarcho’s report was professional and
thorough in its analysis, and that Sposato had high regard for Jarcho’s work, but
Sposato disagreed with the conclusions. Sposato told the OIG that her major
concern was that employees should not be disciplined for mistakes. She stated that
she did not believe that discipline was appropriate in these cases without evidence
of bad intent. She stated that, in the case of both Harp and Mathews, the
investigations were not complete, but that there had been no attempt to hide this
fact and no evidence that they had been ordered to take actions and had refused to
do so. She stated that the criticisms made against Harp and Mathews also could
have been made against Berman because she was the supervising attorney on the
original Department investigation and Sposato believed that investigation had been
flawed as well. Sposato also stated that she felt that many of the characterizations
by DOJ OPR were unfair. She said that her review of the facts did not support a
conclusion that the performance by Harp or Mathews was “terrible.”
      Vail said that he was very concerned that many of the subjects had left the
FBI and that he did not find the DOJ OPR analysis of the insufficiency of the
Walsh and Mathews investigations to be persuasive. He felt that DOJ OPR had
made too many inferences and that there was “no evidence” of intent. Vail added
that he was “not even convinced the work had been all that shoddy.” Vail said that
“absent some evidence of motive,” he did not see the matter as appropriate for

    25
         The memorandum did not explain this conclusion.



                                              55
disciplinary action. Vail agreed that evidence of intent is not always necessary in
order to discipline an employee, but stated that negligence must reach a certain
level in order for discipline to be appropriate.
      Vail and Sposato both said that they were also concerned that the matter was
very old. They said they viewed it as unfair to discipline people who were still at
the FBI when so many others who were equally or more culpable had left. They
told the OIG that they were concerned that Harp had generally followed the orders
of Walsh, who was gone and could not be disciplined.

     C. DOJ OPR Disagrees with Vail and Sposato’s Recommendations
      On July 21, 2000, representatives from DOJ OPR met with Sposato and Vail
to discuss the appropriate levels of discipline in the Ruby Ridge matter. At that
meeting, Sposato and Vail provided DOJ OPR with their April 17, 2000,
memorandum to Colgate. In a memorandum dated October 5, 2000, DOJ OPR
responded and strongly objected to Vail and Sposato’s conclusion that discipline
should not be proposed without clear evidence of a bad motive:
           JMD apparently would conclude that a subject (Harp or
     Mathews, in this case) engaged in misconduct warranting discipline
     only if it found sufficient evidence to conclude that the subject
     failed to carry out his assigned duties (in this case, to conduct a
     complete and thorough inquiry) for an improper purpose (in this
     case, to cover-up wrong-doing of high level FBI managers). Absent
     evidence of such an improper purpose, JMD apparently could
     conclude that the subject’s failure to perform his duties constituted a
     management rather than a misconduct issue.
      DOJ OPR stated that, under its analytical framework, an employee commits
misconduct if he intentionally violates or acts in reckless disregard of an obligation
or standard imposed by law, applicable rule of professional conduct, or
Departmental regulation or policy. It stated that, in this case, both Harp and
Mathews each had a professional obligation to conduct a thorough, complete
inquiry into the Ruby Ridge matters assigned to him or to document that the
inquiry was incomplete. DOJ OPR concluded that each of them breached that
obligation. DOJ OPR stated that, under both its and FBI OPR’s frameworks, “it is
not necessary to find that the employee’s breach of a duty was motivated by an
improper purpose; rather, it is necessary only to find that the employee engaged in
conduct while knowing that the natural consequence of that conduct would result
in the breach of an obligation or standard.” DOJ OPR argued that JMD was

                                         56
substituting a narrower definition of misconduct than that used by DOJ OPR, the
investigators, or the FBI.
      DOJ OPR also argued that Vail and Sposato had failed to consider the
evidence in DOJ OPR’s report of an improper purpose on the part of Harp and
Mathews. With respect to Harp, DOJ OPR set forth its view of the evidence
regarding Harp’s explanations and the evidence indicating bias in favor of the
subjects of the investigation and bias against Berman. Specifically, DOJ OPR
stated that Harp had admitted that the Walsh inquiry was incomplete. DOJ OPR
concluded that Harp, as a highly experienced supervisor, had a professional duty to
document clearly or notify people orally that the investigation was not complete.
DOJ OPR also disagreed with the conclusion that Department attorneys could be
equally faulted for conducting an incomplete inquiry. It stated that the Department
attorneys were not familiar with the workings of the SIOC and justifiably relied on
the agents of the Walsh group to guide them to the pertinent evidence.
      In addition, DOJ OPR stated that there was evidence of Harp’s intent to skew
the inquiry based on his conduct with respect to the editing of the FBI 302’s. It
cited an example of what it considered an attempt to “cleanse a 302 of language
harmful to the FBI.” In this example, Harp admitted that he questioned the agent
who was the author of a 302 about the accuracy of the 302. This inquiry by Harp
resulted in the agent changing the 302 describing the rules of engagement from
“free to fire and justified in doing so,” to a “cleaned-up” version which stated
“authorized to apply deadly force, if appropriate.” DOJ OPR concluded that it was
significant that Harp singled out this statement for his inquiry and that the 302 was
then changed to a more innocuous formulation of the rules of engagement.
      With respect to Mathews, DOJ OPR asserted that Mathews had been
instructed to make sure the investigation was complete, that it was clear that the
investigation was not complete, and that Mathews should have been aware of that
fact because there were a number of pieces of important information missing. DOJ
OPR also stated that it had not found direct evidence of intent on the part of
Mathews, but that it had found statements that, when taken together, suggested
Mathews’ intent to skew the inquiry. For example, Mathews said to an agent that
he wanted to see “an arrow pointing to Glenn,” and criticized an agent who
commented that Potts and Coulson were likely to be disciplined. DOJ OPR found
that Mathews also changed the report’s finding that there was “little evidence” to
“no evidence” in the discussion of the evidence against Headquarters officials.
DOJ OPR found that these actions, together with the “clearly unreasonable
discussions in his report of the approval of the [rules of engagement],” led DOJ


                                         57
OPR to conclude, by a preponderance of the evidence, that Mathews had
conducted an inadequate investigation in order to skew the results of his inquiry to
protect Coulson, Potts, and others at FBI Headquarters.
      DOJ OPR also disagreed with JMD’s conclusion that Mathews did not
commit misconduct when he failed to recuse himself because of his relationship
with Coulson. DOJ OPR concluded that Mathews alone knew of his deep sense of
loyalty to Coulson and that it was incumbent upon Mathews to remove himself
from the inquiry. DOJ OPR cited statements by Mathews that “[his] friend Danny
is not going to get hurt in this,” and Mathews’ notes to Coulson and Freeh after the
inquiry had ended enclosing press articles that were complimentary to Coulson and
expressing satisfaction that Coulson was being remembered for his good work at
the FBI.
     DOJ OPR also objected to JMD’s assertion that Director Freeh’s judgments
should not be the subject of discipline. DOJ OPR stated that JMD’s conclusion
was an “extremely broad approach [that] would amount to granting the Director
blanket immunity for any decision he makes, no matter how lacking in judgment.”
DOJ OPR stated that it rejected that view and affirmed its conclusion that Freeh
should be criticized for using poor judgment.
      JMD did not respond formally to DOJ OPR’s memorandum. In interviews
with the OIG, Sposato, Vail, and Colgate stated that they did not write any
additional internal memoranda or keep any notes justifying or analyzing their
decision to depart from DOJ OPR’s findings.

    D. FBI OPR’s Response to DOJ OPR
      FBI OPR responded to DOJ OPR’s memorandum on November 29, 2000, in
a memorandum signed by Assistant Director DeFeo. In that memorandum, FBI
OPR clarified that, while its standard for misconduct was the same as that utilized
by DOJ OPR, it did not agree with DOJ OPR’s finding of misconduct with respect
to Harp. It also stated that, while it had recommended that the issue of whether
Mathews had committed misconduct by failing to conduct a full review of the
evidence with respect to the approval of the rules of engagement should be
reviewed, this recommendation indicated only that the evidence had reached a
threshold at which it should be subject to disciplinary consideration and did not
equate to a finding that Mathews had committed misconduct. Finally, FBI OPR
disagreed with DOJ OPR’s assertion that the editing of the 302s by Walsh and
Harp was well beyond the bounds of acceptable FBI practice. It stated that absent



                                         58
evidence establishing bad motive “by a clear preponderance,” FBI OPR would not
impose discipline for such editing.

     E.   Colgate’s Decision
      Colgate told the OIG that he reviewed the materials in this matter, including
the DOJ OPR report, Jarcho’s report, the Sposato/Vail memorandum, DOJ OPR’s
response, and FBI OPR’s response, and he concluded that he agreed with Vail and
Sposato that no further discipline was appropriate. He told us that he did this for
two reasons. First, he said he was concerned that the lower-level employees might
be punished for the deeds of their retired superiors. He stated that his “gut” told
him that there was a lot of “angst” over the fact that Potts and Coulson left the FBI
without any punishment and that there was a sense that those who were still at the
FBI should “pay for the sins of those who got away.” Second, he believed that
many of the issues were performance rather than misconduct matters. He said that
there was no question that serious discipline was appropriate for Potts and Coulson
because they were the leaders of what took place at Ruby Ridge. But he did not
believe that Harp and Mathews had committed misconduct.
      Colgate said that he tried to view the issue of intent as he thought the MSPB
would view it. He said he believed that the management and culture at the FBI did
not place an emphasis on internal investigations and that senior management was
well aware that the investigations were sloppy and that there were conflicts of
interest involved. He stated that he saw the whole matter as sloppiness rather than
as a conspiracy to “throw” an investigation. Colgate said that he saw his role as
sorting through the evidence and taking a critical look at some of the conclusions.
He said that, in deciding disciplinary matters, he generally defers to the
assessments of the investigators who conducted the original inquiry, but that he is a
“check point” to ensure a fair outcome. He said that he did not have any dispute
with DOJ OPR’s factual findings, just with the conclusions that they drew from
them.
      Colgate stated that he never seriously considered disciplining Freeh. He said
that Freeh was a Presidential appointee and could have been removed at any time
by the President. Colgate said that since Freeh had publicly admitted he made
mistakes in the aftermath of Ruby Ridge, the President had all the information he
needed to remove Freeh if he so chose. Colgate stated that he also was aware of
the stormy relationship between Director Freeh and Attorney General Reno over
the campaign finance investigation, and Colgate felt that a recommendation for



                                         59
discipline of Freeh by the Department would be seen as retaliation by Reno against
Freeh.
       Colgate told the OIG that he made his decision independently, knowing that
it would make many people unhappy. He said he was never pressured by any
entity and that he tried to make the decision process an open one in which all
parties had input. Colgate added that he has no bias for or against the FBI, but that
he is sure that the FBI has viewed him as a “thorn in its side” over the years.
      Under Department procedures in matters involving a Department attorney,
the deciding official must notify Associate Deputy Attorney General Margolis if he
or she intends to depart from DOJ OPR’s recommended range of discipline.26
Margolis met with Jarcho, Sposato, Vail, and DOJ OPR, and reviewed their
submissions and a draft of Colgate’s decision. Margolis also met separately with
Colgate about his draft decision. Margolis said he reviewed the decision using an
“abuse of discretion” standard. Margolis said he does not substitute his own
judgment of what would constitute an appropriate result; rather, he determines only
whether the deciding official’s conclusions are unreasonable in light of the
evidence.
      Margolis told the OIG that he told Colgate that he did not agree with his
decision and could not endorse it. Margolis said he believed that it would have
been better to have followed DOJ OPR’s practice of not requiring proof of intent in
order to find misconduct. However, Margolis said he was satisfied that Colgate
had looked at the matter carefully, and Margolis also believed that Colgate had not
abused his discretion in reaching the decisions he did. Therefore, Margolis did not
have the case reassigned from Colgate to a new official to make the final
disciplinary decisions.
       As a result, in a memorandum issued on January 3, 2001, Colgate reported
his final decision. In the memorandum, Colgate stated that his staff thoroughly
reviewed the DOJ OPR report and briefed him on the results. He stated that it was
his conclusion at the end of that process that he did not concur with the DOJ OPR

    26
       The applicable memorandum only mandates notification of Margolis when the official
intends to depart from DOJ OPR’s recommended range of discipline for a DOJ attorney, not any
other Department employee. No attorneys were involved in this matter. However, Margolis said
that he became involved in reviewing the matter at Vail’s request and did not focus on the fact
that the order did not apply. By the time he did realize it, he said that he was already deeply
involved and decided to see the matter through.



                                              60
findings of misconduct and the resulting disciplinary recommendations. He stated
that he consulted with both DOJ OPR and FBI OPR about his conclusions and
received additional input from both. He stated that, because his recommendations
were not consistent with those of DOJ OPR, he had notified Associate Deputy
Attorney General Margolis of his decision. Colgate’s memorandum stated that, for
the reasons outlined in the April 17, 2000, memorandum from Sposato and Vail, he
had decided discipline was not warranted, and he declined to adopt the OPR
findings of misconduct. He stated:
           My conclusion is based, in major part, upon my belief that,
     absent evidence of improper motive on the part of these individuals,
     shortcomings in their work products (if any) are typically dealt with
     through the performance management process, not through the
     application of discipline. In these cases, I am unwilling to ascribe
     improper motive to the employees, who in my view simply saw the
     issues differently from their [DOJ] OPR counterparts and therefore
     do not believe discipline is warranted.
      As a result, no disciplinary action was taken against Harp for the
allegations that he failed to ensure that the Walsh inquiry was complete
and to supervise the production of accurate reports of interview.
Similarly, no action was taken against Mathews for the allegation that he
failed to properly recuse himself, for conducting an incomplete inquiry,
and for making unsupported conclusions regarding the rules of
engagement in his report in an attempt to insulate FBI leadership. Finally,
the previously imposed discipline against Glenn and Rogers for their role
in the promulgation of the rules of engagement was not rescinded.
     Finally, Colgate’s memorandum did not discuss Freeh or DOJ
OPR’s recommendation that Freeh be criticized for poor judgment.
Margolis told us that, after discussions with Vail and Sposato, he told
Colgate that he should consider formalizing his implicit decision not to
recommend discipline for Freeh. Colgate told us that he thought that was
unnecessary and did not do so because Freeh had admitted his mistakes
and because Colgate did not believe that he had jurisdiction over a
Presidential appointee.
       On January 3, 2001, Margolis notified JMD and DOJ OPR that he had
reviewed the material supplied to him by JMD and DOJ OPR and had concluded
that the disposition proposed by Colgate “falls within [his] legitimate discretion.”


                                         61
Margolis stated that JMD could therefore proceed to resolve the pending matters
along the lines proposed in Colgate’s memorandum.

VIII. OIG Analysis
      We recognize that, at this point, there are well documented and strong
disagreements about the disciplinary decisions ultimately reached in Ruby Ridge
and that our independent assessment is unlikely to end the disagreements about the
ultimate outcome. Numerous entities and individuals who were much closer to the
events than we have weighed in with analysis and opinions, often reaching
different conclusions. Nonetheless, we believe that there are important lessons to
be learned from a review of the response to Ruby Ridge.
       First, there is almost nothing about Ruby Ridge that worked well. The
incident itself was replete with poor performance, poor judgment, misconduct, and
acts of clear obstruction to cover up the problems. The FBI’s initial investigation
of the incident was at best grossly deficient and at worst intentionally slanted to
protect the FBI and senior FBI officials. Subsequent investigations were more
thorough, but the discipline process took so long and was so flawed that in the end,
it is hard to say that a fair result was reached.
      The ultimate disciplinary decision for the subjects of the second round of
investigations was removed to the Department specifically to avoid any further
allegations that the FBI was covering up the misconduct of its senior officials.
Nonetheless, in the end, because of what we believe to be flawed analysis on the
part of JMD, the appearance that culpable senior officials had “gotten off” remains.
      There are no standards or internal Departmental regulations guiding a
deciding official’s actions in discipline matters. In this case, JMD used a different
standard to evaluate the evidence than did DOJ OPR and FBI OPR. As Colgate’s
final memorandum made clear, JMD viewed the deficiencies as performance
issues, not misconduct that required adverse action. DOJ OPR strongly objected,
arguing that it is not necessary to find that the employee’s breach of duty was
motivated by an improper purpose; rather, it is necessary only to find that the
employee engaged in conduct while knowing that the natural consequences of that
conduct would result in the breach of an obligation or standard.
      We, like DOJ OPR and FBI OPR, believe that it is not necessary to find a
bad intent in order to impose discipline. Intent is a factor that may be considered
when determining the appropriate discipline. Indeed, one of the factors relevant in
determining a penalty, as outlined in the seminal case of Douglas v. Veteran’s


                                         62
Administration, et al., 5 M.S.P.B.313 (April 10, 1981), is “whether the offense was
intentional or technical or inadvertent, or was committed maliciously or for gain.”
The fact that inadvertence could be a factor to be considered in determining a
penalty is a clear indication that discipline, not just a poor performance evaluation,
may be appropriate in cases where bad intent has not been proven. Also, the
Department has imposed discipline in other cases where intentional misconduct
was not shown.
      We also believe proof of intent should not be required because of the
difficulty in proving the bad motive of any individual. Such proof is rarely direct
and depends upon putting together circumstantial evidence. Where other credible
evidence of misconduct exists, proof of intent should not be a requirement to
impose discipline. In addition, treating poor performance only as a performance
issue often means that significant neglect of duty will go unaddressed. By the time
the misconduct investigation has been completed, the rating period will have
passed and the employee’s neglect of duty will not be accounted for. Therefore,
we believe that future cases should be based on a standard that does not require
proof of a bad motive.
      Of course, even if JMD had used what we believe to be the appropriate
standard, it is likely it would not have recommended discipline against Harp or
Mathews. As expressed in JMD’s report, JMD was heavily influenced by the
passage of time and the inability of the Department to discipline the individuals
who many believed were the more culpable individuals. This factor – the
disciplining official’s discomfort at imposing punishment on some individuals but
not others – is present in other cases as well and can present a significant obstacle
toward imposing discipline on mid-level managers. In general, senior officials are
eligible for retirement and many escape punishment by retiring before the
investigation is concluded. The appearance of a double standard is exacerbated
when disciplining officials consider the absence of punishment for others as a
mitigating factor when considering whether to discipline managers. We believe
this should only be a significant factor when considering whether to discipline rank
and file employees after more culpable managers have retired.
       In at least one other complex matter in which JMD officials were the
deciding officials for discipline, JMD argued that the passage of time was a
mitigating factor. We believe that this view creates problems for investigative
entities, which are obligated to conduct thorough and complete investigations.
Ruby Ridge, in particular, was delayed by actions of the subjects that arguably
impeded the initial investigation and by a criminal investigation. If the efforts of


                                          63
the investigators are in the end going to be wasted unless the investigation is
completed within a specific time frame, then investigating entities need to be
informed of the time frame and given sufficient resources to meet it.
      We, like DOJ OPR, believe that Harp and Mathews should have been
disciplined for failure to carry out their assigned duties – completing thorough and
impartial inquiries – regardless of whether there was evidence of improper
motivation. Moreover, like DOJ OPR, we believe that there was sufficient
evidence in the record to sustain a finding that both men acted with an improper
purpose. Harp acknowledged that the Walsh inquiry was incomplete but offered
an explanation that DOJ OPR found lacked credibility. Moreover, Harp failed to
notify anyone of the incompleteness of the inquiry. In our view, this fact, together
with Harp’s conduct with respect to the editing of the 302’s, suggested, by a
preponderance of the evidence, an improper purpose on Harp’s part. We also
believe that Mathews’ failure to recuse himself despite his relationship with
Coulson, taken together with his statements and the unsubstantiated findings in his
report regarding approval of the rules of engagement, established by a
preponderance of the evidence that Mathews conducted an inadequate
investigation.
      With respect to changing previously imposed discipline, we believe that
Colgate should have cleared Glenn’s record, as recommended by DOJ OPR. DOJ
OPR investigated the process by which the FBI made disciplinary decisions after
the issuance of the Mathews report and found that those decisions were made
based on the unsupported assertion that on-scene commanders were responsible for
approving the rules of engagement. Given DOJ OPR’s findings that the rules of
engagement were approved at the Headquarters level, we believe that the
preferable course was for JMD to have taken action to correct a prior error in
imposing discipline, regardless of the benefits of finality in the disciplinary process
and the significant passage of time since the discipline had been imposed.
       However, while we do not agree with Colgate’s ultimate decisions, we
believe they were made in good faith, after a careful review of the record. He had
a difficult task that was unlikely to please everyone. Although we would have
come out differently on the ultimate decisions he made, we do not believe he
abused his discretion. Yet, we disagree with the basis for his decisions.
     We also believe that Colgate should have addressed the issue of Freeh’s
conduct in Ruby Ridge. The issue was raised by both DOJ OPR and Jarcho and
warranted explanation in Colgate’s final decision, even if the explanation was why
Colgate did not believe that discipline was appropriate. Like DOJ OPR, we do not

                                          64
agree with the opinion in the Vail/Sposato memorandum that Freeh’s “judgments
should not be the subject of discipline, no matter what others may think of them.”
We agree with DOJ OPR that such a statement creates a type of immunity for the
Director of the FBI and suggests that his decisions cannot be reviewed for either
misconduct or poor judgment. We therefore believe that Colgate should have
explicitly addressed Freeh’s role in the matter and explained his decision not to
recommend any action regarding him.
      Finally, although the ultimate decision in Ruby Ridge was made by JMD and
not the FBI, we believe the effect of Colgate’s decision was to exacerbate further
the perception of a double standard in discipline for senior FBI officials. This was
likely worsened by the fact that Colgate’s decision rejected the lengthy and
complex analyses in two separate reports by DOJ OPR and Jarcho with only a
short, conclusory memorandum. In the end, the effect of his decision, particularly
without sufficient explanation as to the reasoning and the evidence supporting it,
was to feed the perception that several lower-level FBI employees were harshly
disciplined and upper-level employees either retired or received no or light
discipline. We believe this result contributed to the perception of a double
standard of discipline in the FBI.
IX. Bonuses and Promotions
      One aspect of Ruby Ridge and the Potts party investigation that has not been
reviewed by the Department or FBI OPR was the promotions and bonuses given to
FBI employees who were the subjects of internal Ruby Ridge investigations while
the investigations were pending. While a presumption of innocence is usually
appropriate while a subject is under investigation, rewarding a subject who is later
found to have committed misconduct can result in adverse consequences. We
believe the FBI should be mindful of the message it sends to both the investigators
in a particular case and the rest of the FBI when subjects of investigation are
promoted or receive bonuses or awards while under investigation. This is
especially true where high-level officials are under investigation, because
investigators may interpret the giving of an award as an indication that senior
management has already judged the merits of the investigation.
      A number of FBI officials under investigation for the Ruby Ridge matter
received promotions and bonuses while the investigation was pending. The most
well known of these promotions was of Potts to Deputy Director – a promotion
that Freeh later acknowledged was poor judgment on his part. Our review of other
promotions and bonuses reveal additional issues of concern.


                                         65
    Harp, Walsh, Mathews, Coulson, Kahoe, and Potts received either
promotions or bonuses while under investigation for Ruby Ridge:
        •   Harp was promoted to SAC in Cleveland in December 1995 after DOJ
            OPR had commenced its investigation into the inadequacy of earlier
            internal Ruby Ridge inquiries. The memorandum to the Director
            presenting the qualifications of the candidates for the Cleveland SAC
            position does not mention the ongoing investigation, although Freeh
            told us that he was aware of the investigation and its scope. In
            addition, Harp was given a cash award of $8,099 in November 1997
            while still under investigation for Ruby Ridge and an award of $14,208
            in October 1998 while under investigation for Ruby Ridge and for
            attendance at the Potts retirement party.
        •   Walsh received a cash award of five percent of his salary while under
            investigation by DOJ OPR for Ruby Ridge. While under investigation
            by DOJ OPR and under criminal investigation by Stiles, he was
            promoted to SAC in San Francisco in December 1996. Freeh asked
            FBI OPR to check with DOJ OPR and Stiles regarding the promotion.
            DOJ OPR did not object, and Stiles would not comment. The
            memorandum to the Attorney General requesting approval for Walsh’s
            move to San Francisco did not indicate that Walsh was under
            investigation.
        •   Mathews was promoted to an SES position in July 1995 after
            commencement of the DOJ OPR investigation into allegations that the
            internal inquiries of the original Ruby Ridge matter were inadequate.
            Mathews was promoted to SAC in New Orleans in June 1997 while
            still under investigation.
        •   Kahoe was given a cash award of $7,126 in November 1993 during the
            initial Ruby Ridge investigation. He was promoted to SAC in
            Jacksonville, Florida, in June 1994 while under investigation. The FBI
            later proposed a 15-day suspension for Kahoe. He was removed from
            the SAC position in October 1995 and pled guilty to obstruction of
            justice in October 1996.
        •   Coulson was promoted to SAC in Baltimore in April 1993 while under
            FBI’s internal investigation of Ruby Ridge. He was given a cash
            award of $5,590 in November 1993 while still under internal
            investigation. Coulson was promoted to SAC in Dallas in September


                                        66
             1994 before the Mathews report recommending discipline in the Ruby
             Ridge matter was complete. He was ultimately issued a letter of
             censure following issuance of the Mathews report.
         •   Potts was promoted to Acting Deputy Director in 1994, prior to
             completion of the final internal FBI decisions about discipline in Ruby
             Ridge. He received a letter of censure in January 1995. Despite this
             censure, he was made Deputy Director in May 1995.
      We asked former Director Freeh about these promotions and bonuses. He
told us that the fact that someone is under investigation was not necessarily enough
for him to disapprove a bonus. He stated that in many cases he would approve a
bonus and leave it to the Department of Justice to disapprove it if they wanted.
Freeh stated that the Department was free to disapprove any of his
recommendations and had access to the information that might cause them to do
so. Freeh also stated that the various Ruby Ridge investigations dragged on far too
long, and he believed that he could not “leave people hanging” in terms of career
advancement. Freeh told us that he is a “strong believer in the presumption of
innocence even as applied in an administrative process.” Freeh said that he spoke
at length with FBI OPR Assistant Director DeFeo and felt that, given the facts
developed by DOJ OPR to that point, it was not inappropriate to make personnel
decisions regarding the subjects. Freeh stated that he repeatedly pushed the
Attorney General to resolve Ruby Ridge one way or another. He also stated that
he believed there had been insufficient diligence by the Department in resolving
the matter. He told us that this delay put FBI employees in an intolerable position,
especially employees like Harp and Mathews who were ultimately not disciplined
by Colgate. Freeh added that he attempted to obtain relevant information about the
facts of the investigation in making his decisions, but that the Department was
reluctant to provide such information. Finally, he stated that there were many
instances in which he did not make otherwise merited promotions because of a
pending disciplinary inquiry.
      It is true that the investigations of Ruby Ridge were lengthy and that the
disciplinary process was extraordinarily slow. However, Freeh testified before a
Senate subcommittee in October 1995 about the wisdom of his promotion of Potts
to Deputy Director despite the finding that Potts had mishandled the crisis. He
stated at that time: “Looking back, I recognize that I was not sufficiently sensitive
to the appearance created by my decision to discipline and simultaneously promote
Mr. Potts.” See Hearing before the Senate Judiciary Committee, Subcommittee on



                                         67
Terrorism, Technology and Government Information, October 19, 1995. The DOJ
OPR Ruby Ridge report put the problem more strongly:
               We agree with the Director’s own statement that he exhibited
         poor judgment in promoting Potts, not just because he failed to
         balance all the positive and negative factors, but because the
         promotions (both to Acting Deputy Director and to the full position)
         and their timing inevitably had the effect of sending a signal to the
         persons investigating the Ruby Ridge matter, that the Director had
         full confidence in Potts and that he might not be receptive to a
         report that strongly criticized the conduct of Potts. This action also
         sent a message to employees throughout the FBI, telling them that
         the Bureau was willing to overlook serious allegations of
         misconduct and even reward the subject of the allegations with a
         major promotion. Such a message inevitably had a damaging effect
         on the morale of the great majority of FBI personnel who take great
         pride in their integrity and in their adherence to high standards of
         professional conduct.
      We agree with DOJ OPR that the promotions of individuals while under
investigation for serious misconduct were troubling. In 1993 it should have been
obvious that there were significant issues involving FBI personnel and by 1995 an
ongoing criminal investigation should have made it even clearer that the
allegations against certain individuals were serious. Despite Freeh’s comment to
the Senate subcommittee in October 1995 that he had not been sufficiently
sensitive to appearances, he promoted Harp only two months later, followed by
promotions for Walsh and Mathews. We believe that the FBI and Department
components need to carefully consider whether to promote or grant awards to
individuals who are under investigation. The Department should consider whether
a Department official should approve awards and promotions for high-level
individuals who are under investigation.27



    27
       FBI and Department officials are more sensitive to this issue now, since the Department
routinely requests information from the OIG and OPR about whether senior FBI and other
Department officials who are being considered for promotions and significant awards are under
investigation.




                                              68
       In addition, we have serious concerns about various conflicts of interest
surrounding these promotions. First, Potts sat on the Career Board that made
recommendations to the Director on the promotions of Kahoe and Coulson. Given
that the Ruby Ridge investigation still was ongoing at the time, it is shocking that
neither Potts nor the FBI thought it improper for Potts to be involved in
considering the promotions of individuals who were also subjects of the
investigation. In addition, Potts sat on the Career Board considering Walsh for
promotion just six months after Walsh completed his report on Potts’ and others’
actions at Ruby Ridge. Potts also sat on the Career Board that considered the
promotion of Harp to the SES level just five months after Walsh’s report, with
great input from Harp, was completed. The appearance of a conflict should have
been obvious. We asked Freeh about some of these conflicts. He responded that,
in retrospect, Potts should not have been on those Career Boards.
      Indeed, we found that the FBI’s insensitivity to possible conflict issues was a
common thread running through many cases. As noted previously, the FBI
assigned Walsh and Mathews to investigate their friends. Also, Coyle was on the
SES Board for the Potts party disciplinary matter. Although the FBI may believe
that all personnel will attempt to act objectively even with respect to their close
friends, we believe this view is not realistic and, in any case, such conflicts at a
minimum feed the appearance of favoritism.




                                         69
                                 CHAPTER SIX
         OIG RECOMMENDATIONS AND CONCLUSIONS
CHAPTER SIX: OIG RECOMMENDATIONS AND CONCLUSIONS
      We believe that the evidence showed that in several FBI disciplinary matters,
including several important and well-known cases, senior managers were afforded
different and more favorable treatment than less senior employees. Various factors
contributed to this difference in treatment.
      First, by law SES members cannot be suspended for less than 15 days. As a
result, we believe that many SES managers at the FBI receive letters of censure
when lower-level employees would receive short suspensions for similar conduct
      Second, during the FBI adjudication process, significant weight is given to
the long and outstanding records of senior FBI managers when considering the
Douglas factors. Because less senior employees may not have such lengthy
records, this benefit may be weighted heavily in the favor of senior managers.
      Third, we believe that some of the specific cases that we examined indicate
that SES Board members gave undue weight to the explanations of SES members
who were subjects of investigations, possibly because of a reluctance to find that a
fellow SES member “lacked candor.”
      Fourth, we were told that the former SES disciplinary system may have
fostered a double standard because different decision-makers were on each
disciplinary board that was convened, and the Board members had different levels
of experience in handling personnel matters. As a result, the Board members’
approach often deviated from the strict precedential approach used by FBI OPR for
non-SES employees. This problem was exacerbated by the fact that, prior to the
changes in August 2000, FBI OPR did not submit factual findings or conclusions
about misconduct to the SES Disciplinary Boards. The Boards therefore had
considerable flexibility in interpreting the evidence presented to it. This led to the
perception that in several cases, such as in the Potts retirement party matter, the
Board manipulated the facts to achieve a lenient disciplinary result.
      Fifth, several individuals who sat on SES Disciplinary Boards told us that
they believed that a letter of censure for a senior manager is, in fact, a significant
punishment that could effectively end a manager’s career. They did not believe
that a letter of censure had the same effect on lower-level employees’ careers. We
were unable to validate this perception or determine whether a letter of censure had
a more serious impact on the career of a senior manager than a less senior FBI
employee. However, we believe that the existence of this belief led some SES

                                         70
Board members to conclude that a letter of censure was an appropriate punishment
for FBI managers, even though a harsher punishment would normally be given to
lower-level FBI employees.
       Sixth, the ability of FBI employees to resign or retire during an investigation
or at any time prior to having discipline imposed fed the perception that certain
managers escaped punishment. This problem is exacerbated when the disciplining
official factors in a pending retirement when determining punishment, as we saw in
several cases of SES discipline that we reviewed.
      We believe that the August 2000 reforms to the FBI disciplinary system that
abolished the two-track system will correct some of the problems with the former
FBI SES disciplinary system. Discipline for SES and non-SES employees is now
handled according to the same system. We believe this should help to alleviate
some of the perception of a double standard of punishment.
      Moreover, in July 2001 the authority to investigate misconduct of FBI
employees was changed. Prior to that time, the FBI investigated its own
misconduct. Unlike in other DOJ components, the OIG could not investigate
allegations of misconduct in the FBI or the Drug Enforcement Administration
(DEA) absent specific permission from the Attorney General. In July 2001, the
Attorney General expanded the OIG’s jurisdiction to investigate misconduct
throughout the Department, including in the FBI and the DEA.28 This change was
codified in statute in the DOJ Reauthorization legislation that was signed by the
President on November 2, 2002.
      As a result, the OIG now investigates most allegations of misconduct against
high-level FBI officials. We believe that the OIG’s involvement and oversight of
the FBI will help ensure that misconduct by high-level FBI officials is not
dismissed or treated more leniently than allegations against lower-level FBI
employees.
      However, we believe that several additional issues should be considered by
the FBI and the Congress to help reduce the reality or the perception of a double
standard of discipline in the FBI. First, the current system of discipline provides
for SES employees to have appeal rights to the FBI’s Inspection Division or a

    28
       The one exception is that DOJ OPR continues to investigate allegations of misconduct
involving Department attorneys or investigators where the allegations relate to the exercise of the
authority of the attorney to investigate, litigate, or provide legal advice.



                                                71
Disciplinary Review Board. The Assistant Director of the Inspection Division or
the Board may “independently redetermine the factual findings and/or the penalty
imposed.” If a new penalty is imposed, however, it must be consistent with
applicable precedent. Both the Assistant Director of the Inspection Division and
the Board are required to document their findings in writing and provide the
employee a written decision. But there is no requirement that the Assistant
Director or the Board must provide written justification for their findings or
explain why they are altering the disciplinary decision made by FBI OPR.
      We believe that a clear written justification explaining why the Assistant
Director or the Disciplinary Review Board changed the disciplinary decision on
appeal should be required. Also, any changes regarding factual findings or
penalties should be accompanied by a written justification that explicitly describes
the reasons for the changes. This would ensure that the judgment of the Assistant
Director or the Board is not simply substituted for that of the decision-maker.
        Second we continue to have some concerns about the composition of the
Disciplinary Review Boards because they still include only SES members. In
August 2000, the separate SES Disciplinary Review Boards for SES employees
were eliminated, and discipline in all cases is now appealed to Boards that are
composed of the Assistant Director of the Investigation Division, an SES member
chosen by the subject, and an SES member chosen by lot. While this is a marked
improvement on the previous system, it still results in all discipline being decided
by Boards consisting solely of SES members. Because of this makeup, there is
still the danger of a perception that SES employees who come before the Boards
may be treated less harshly. We believe the FBI should consider options to
alleviate this perception, such as including a non-SES member on the Boards or
including someone from outside of the FBI, such as an official from the
Department.29
      Third, we believe that the FBI should have a full range of disciplinary
options with which to discipline SES officials. The current legal restriction on the
suspension of SES employees – that they can only be suspended for 15 days or


    29
        In a response to a draft of this report, the FBI noted that one SES member of the
Disciplinary Review Board is chosen by the employee appealing the discipline. The FBI also
stated that the process would have some random observers from the non-SES ranks. We believe
that this response does not go far enough, and that the Disciplinary Review Boards should not be
limited solely to SES members and non-SES observers.



                                              72
more – ties the hands of deciding officials. The outcome is that SES employees
often receive lesser punishments than deserved because the deciding official must
choose between a letter of censure and a 15-day suspension. We think Congress
should change this limitation. We note that such a revision is part of an FBI
Reform Bill introduced by Senators Leahy and Grassley in February 2002.30
      Fourth, the FBI needs to ensure that any policy changes that are made with
regard to appropriate discipline are properly disseminated to its employees and
consistently applied. As we mentioned on page 15 of this report, in a 1996 SES
case the FBI instituted a change in the standard discipline for the offense of losing
a pager. However, this changed precedent was not consistently applied, and in
several cases lower-level FBI employees received greater discipline than FBI
managers for this offense. If there is a change of precedent, it needs to be
uniformly enforced by the FBI.
      Fifth, the FBI must attempt to resolve the conflict between applying the
Douglas factors and the “bright line” policy. In January 1994, Director Freeh
issued a bulletin to all supervisors in the FBI about its standards of conduct and
discipline. He stated that he had determined that the FBI had been too tolerant of
certain types of behavior that are fundamentally inconsistent with continued FBI
employment. He stated that he was drawing a “bright line” which would serve to
put all employees on notice that he believed in the “simple truth that lying,
cheating, or stealing is wholly inconsistent with everything the FBI stands for and
cannot be tolerated.” He then set forward several examples of behavior for which
employees could expect to be dismissed. These included lying under oath, voucher
fraud, theft, and material falsification of investigative activity or reporting.
      However, the uneven application of this bright line policy seems to have
increased the perception of a double standard. Some FBI senior managers
involved in conduct that seemingly violated this policy, such as in the Potts party
case, were only given letters of censure. A lack of uniformity in applying the
bright line policy necessarily creates a suspicion that favoritism or “cronyism” is
the reason that it is not being followed. We found, however, that managers were
not the only FBI employees who benefited from a deviation from the strict
requirements of the bright line policy. We found cases in which non-SES
employees were punished but not terminated even when they had violated one of
the bright line categories. We believe the FBI should determine whether it wants

   30
        In its response to the draft of this report, the FBI stated that it also supports this change.



                                                   73
to maintain a “bright line” policy or consider the employee’s history and mitigating
and aggravating circumstances, as outlined in the Douglas factors. If the FBI
chooses to follow its current bright line policy, it is important that it do so
consistently.31
      Sixth, the FBI should consistently apply precedent from non-SES cases to
SES disciplinary matters. FBI policy instituted in August 2000 states that “[t]he
same standards for evaluating evidence will be consistently applied to all
employees with due regard for the increased responsibilities and obligations of a
senior executive.” We believe this should be interpreted as meaning that the
discipline that is appropriate in non-SES cases not only be considered but in most
cases should act as the minimum punishment that should be imposed in SES cases.
Greater punishment may be warranted because a senior official presumably should
exercise even stricter adherence to duty and ethical regulations.32 Lesser
punishment may be warranted, but if so the reasons should be carefully
documented.
      The expectation within the FBI’s rank and file appears to be that an SES
employee should be disciplined in the same manner as a lower-level employee who
engaged in similar conduct. If this expectation is not met, the suspicion of
favoritism and cronyism arises. We recognize that in many cases, an SES
employee will have had a long and successful history with the FBI, a factor that
can be considered pursuant to the Douglas factors. Furthermore, the FBI’s
investment in senior FBI executives in terms of training and experience is
substantial. However, the FBI should not allow consideration of a manager’s
record to routinely outweigh the equally important consideration that managers
should be held to higher standards than other employees.



    31
      In its response to the draft of this report, the FBI acknowledged that not all employees
who violated the bright line policy are dismissed. It stated that it has established a working
group on candor issues that will submit a final recommendation on this issue within six months.
    32
       FBI policy states that in most instances penalties for violations of regulations will fall
within a range of penalties set forth in the FBI’s Manual of Administrative Operations and
Procedures. It states, however, that in an aggravated case a penalty outside of the range may be
imposed. It cites as an example the case of a supervisor or FBI official who, because of his or
her responsibility to demonstrate exemplary behavior, “may be subject to a greater penalty than
is provided in the range of penalties.”



                                               74
      Seventh, while the FBI manual clearly anticipates that an SES employee may
be the subject of a greater penalty because of the employee’s leadership position,
FBI decision-makers seemed to believe that a lesser penalty is acceptable because
of the effect any penalty will have on the individual’s career. We have concerns
about this justification because, in part, we had difficulty substantiating the claim
that a letter of censure would have a significant impact on the career of a senior-
level FBI employee. Furthermore, we believe that this rationale can be easily
abused and could inevitably lead to managers being treated more leniently than
other employees. We believe that it is better to discipline FBI employees based on
the merits of the case and precedent, rather than using speculation regarding the
impact on an individual’s career as a mitigating factor.
      Eighth, we encountered many instances where senior FBI employees retired
while under investigation for misconduct, and the disciplinary process ceased. We
believe the FBI should consider continuing the disciplinary process in certain
cases, even when an FBI employee retires while under investigation, so that a final
disciplinary decision is reflected in the employee’s personnel file.
      We recognize that retirement or resignation while the disciplinary process is
ongoing is not limited to senior FBI employees. However, they are more likely to
be in a position to retire, and we saw many instances where they did so to avoid
discipline. Although we do not believe that FBI resources should be expended in
all misconduct cases to reach a final disciplinary decision when the subject has
retired, we believe that the FBI should consider doing so in some cases,
particularly when some FBI employees have received discipline for their actions
while others retired or resigned to avoid discipline in the same case.
     Ninth, we saw cases where individuals had received significant promotions
or bonuses despite the fact that they were the subject of an ongoing investigation.
This was especially pronounced in the Ruby Ridge case, where Potts was promoted
to Deputy Director while under investigation and many other subjects received
bonuses and promotions while under investigation. We believe that promotions
and bonuses for individuals while under investigation for serious allegations of
misconduct should be carefully considered, particularly when the allegations
appear to be supported by significant evidence.
      Tenth, it is critical that the FBI establish guidelines for when FBI employees
should be recused from participating in investigations or disciplinary decisions
regarding other FBI employees. FBI policies do not provide clear guidance on this
issue. Our interviews with FBI officials indicated that the FBI normally leaves it
to individual employees to decide when to recuse themselves if they believe there

                                         75
is a reason why they cannot be impartial. We believe there should be a clearer
approach to the question of conflicts and a recognition that the appearance of a
conflict can be as damaging as an actual conflict of interest. We think it useful for
the FBI to formulate a policy, available to all employees, describing guidance on
this issue.33
      Eleventh, given the strong perception among FBI employees of the existence
of a double standard and the fact that our review found evidence supporting that
belief, we recommend that the FBI establish a mechanism to regularly review SES
and non-SES discipline. For example, the FBI’s Inspection Division or the Justice
Management Division could analyze samples of cases of senior managers
compared to non-managers, with the results being reported to the OIG for an
independent review.
      Finally, we recognize the difficulty in eliminating completely the perception
that upper-level managers in the FBI are treated more favorably than their non-SES
counterparts, particularly given the recent and well-known cases that we have
described in this report. We believe the elimination of the SES Board should assist
in the effort to equalize the treatment of all FBI employees, as should the OIG’s
expanded jurisdiction in the FBI. But the FBI should continue to be mindful of the
damage that is done when employees believe that the disciplinary system is
unequal or unfair. We believe that the FBI should strive to reduce that concern,
and we believe that full implementation of these recommendations will help the
FBI address this serious issue.


                                                              __________________________
                                                              Glenn A. Fine
                                                              Inspector General




    33
       In response to the draft of this report, the FBI stated that it will develop a written recusal
policy within six months.



                                                  76
